<html>
<title> - RUSSIAN INTERVENTION IN EUROPEAN ELECTIONS</title>
<body><pre>[Senate Hearing 115-105]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-105

               RUSSIAN INTERVENTION IN EUROPEAN ELECTIONS

=======================================================================

                                 HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 28, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                    
                                 __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-127 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1473647b54776167607c7178643a777b793a">[email&#160;protected]</a>                     
                    
                    
                 
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                 CHARLES SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                             JUNE 28, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2

                               WITNESSES

Burns, Ambassador Nicholas, Professor of Diplomacy, Harvard 
  Kennedy School of Government...................................     4
    Prepared statement...........................................     7
Garcevic, Ambassador Vesko, Professor of Diplomacy, Pardee School 
  of Global Studies, Boston University...........................    13
    Prepared statement...........................................    15
Sarts, Janis, Director, Nato Strategic Communication Center of 
  Excellence.....................................................    27
    Prepared statement...........................................    29
Stelzenmueller, Constanze, Ph.D., Bosch Senior Fellow, Brookings 
  Institution....................................................    35
    Prepared statement...........................................    37

 
               RUSSIAN INTERVENTION IN EUROPEAN ELECTIONS

                              ----------                              


                        WEDNESDAY, JUNE 28, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr (presiding), 
Warner, Risch, Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, 
McCain, Feinstein, Wyden, Heinrich, King, Manchin, Harris, and 
Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order.
    Today, the Committee convenes its seventh open hearing of 
2017 to examine Russian interference in the 2016 U.S. 
elections, and the twelfth open hearing this year.
    To date, our open hearings have largely focused on the 
domestic impact of Russia's activities. Today's witnesses, 
however, will highlight for the Committee and for the American 
people Russia's interference in the European elections. We hope 
to gain additional understanding of Russian efforts to 
undermine democratic institutions worldwide as the Committee 
continues its inquiry.
    The Intelligence Committee assessed in January that Moscow 
will apply lessons learned from its campaign aimed at the 
United States presidential election to further influence 
efforts worldwide. It further assessed that Russia has sought 
to influence elections across Europe. Director of National 
Intelligence Coats echoed those words as recently as May when 
he testified before the Senate that Russia is seeking to 
influence elections in Europe, including France, Germany and 
the United Kingdom.
    The intelligence community assesses that the Russian 
messaging strategy blends covert intelligence operations such 
as cyber activity with overt efforts by Russian government 
agencies, state-funded media, third-party intermediaries, and 
paid social media users, or trolls. Russia is employing a 
whole-of-government approach to undermining democratic 
institutions globally.
    Facing down Russia's malicious activity is no longer just a 
bipartisan issue. To successfully protect our institutions and 
the integrity of our electoral systems, we must work as a 
global community to share our experience. Collective awareness 
of Moscow's intentions spanning borders and continents will 
help us to enhance our security measures and thwart these 
disinformation campaigns.
    Just as Germany is learning from the recent events in 
France and Montenegro, we will lean on our allies to inform our 
approach of the 2018 elections. We must advance more quickly 
than our adversaries and only together will we do so.
    I'd like to welcome our distinguished witnesses today: 
Ambassador Nick Burns, the Roy and Barbara Goodman Family 
Professor of the Practice of Diplomacy and International 
Relations at Harvard Kennedy School of Government. Nick, that's 
a mighty long title there that you've got. We're delighted to 
have you.
    Janis Sarts, Director of NATO's Strategic Communications 
Center of Excellence. Hopefully, I'm getting these names right. 
I'm trying my best.
    Ambassador Vesko Garcevic, Professor of the Practice of 
Diplomacy and International Relations at Boston University 
Frederick Pardee School of Global Studies.
    And Constanze Stelzenmueller, the inaugural Robert Bosch 
Senior Fellow in the Brookings Institute Center on United 
States and Europe.
    Thank you all four for being here to help us better 
understand Russia's activities and the underlying intentions 
that Russia might have.
    With that, I will turn to the Vice Chairman.

 OPENING STATEMENT OF HON. MARK R. WARNER, A U.S. SENATOR FROM 
                            VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. And let me 
commend you on your--on your brilliant introduction of our 
witnesses. And welcome, witnesses.
    Today's hearing continues the Committee's efforts to 
address the issues surrounding Russia's active interference in 
our democratic process and in the 2016 elections here in 
America, as well as Russia's similar and in some cases ongoing 
efforts to undermine democratic institutions amongst many of 
our closest allies.
    At this point, I believe we have a pretty good 
understanding of the Russian playbook. Russia's goal is to sow 
chaos and confusion, to fuel internal disagreements, and to 
undermine democracies whenever possible, really to basically 
cast doubt on the democratic process wherever it exists.
    There's nothing unusual about Russia's scheming to 
influence the American elections. We all know their efforts 
date back to the Cold War. But Russia's blatant interference in 
the United States' 2016 presidential elections was 
unprecedented in both scale and scope.
    And we've seen it replicated across Europe. In fact, 
Russia's active measures are only growing bolder and more 
brazen in the digital age. Russia has interfered or attempted 
to interfere in elections from France to the Netherlands, from 
the Balkans to the Baltics. We've seen Mr. Putin's government 
use of quote-unquote, ``active measures,'' including support 
for far-right and far-left parties opposed to historically 
successful European institutions and post-World War II Western 
alliances.
    For example, Russia has provided support and financial 
assistance to the far-right party of Marine Le Pen in France in 
a very blatant and obvious way. Russia has launched cyber 
attacks against political parties and government institutions 
in several Western countries. They've also released stolen 
information in an effort to steer elections in a particular 
direction, as we saw in the French elections with their release 
of information about then-candidate Macron.
    Germany's parliament has been cyber-attacked with members' 
e-mails hacked and stolen. Most observers expect this stolen 
information to be utilized before this fall's national 
elections in Germany.
    As in the United States, Russia aggressively uses trolls 
and bots to spread fake news and disinformation, with the goal 
of weakening European institutions and driving a wedge between 
the United States and Europe. These active measures have been 
supported by state-controlled Russian media, including RT and 
Sputnik.
    So far, these Russian efforts have not been as successful 
in Europe as perhaps they were here in the United States. For 
instance, in France the Macron campaign and the French 
government were prepared to push back on cyber leaks as they 
released that information in the 48-hour blackout period. And 
we've seen companies such as Facebook actually take down a 
series of fake accounts to help blunt those efforts.
    In the Netherlands, earlier this spring officials actually 
hand-counted paper ballots to ensure that there would be no 
electronic interference in the vote count. Across Europe, 
government and media have pushed back against fake news stories 
and have established such institutions such as the E.U.'s 
Strategic Communications Division and the NATO Strategic 
Communications Center of Excellence to educate the public in 
identifying and correcting Russian propaganda.
    Frankly, we have learned a thing or two from our allies in 
Europe about proactively protecting ourselves against these 
threats posed by Russia. Months ago, I would have assumed this 
hearing would have been a good opportunity for the United 
States to actually import some lessons learned to our European 
friends. Unfortunately, to date we've not yet as a government 
in the whole taken to heart many of those lessons.
    Unfortunately, as we've heard in testimony before our 
Committee, our President and his Administration have frankly 
demonstrated little interest in determining how the Russians 
did what they did or how we might better protect ourselves 
going forward. Instead, we've seen the President repeatedly 
deny that Russia was responsible for U.S. election 
interference, even in the face of unanimous agreement among our 
Nation's intelligence agencies.
    He's consistently questioned the integrity of our 
intelligence professionals and he's been all over the map in 
discussing the United States' commitment to the trans-Atlantic 
alliances such as NATO.
    As several of my colleagues on the Committee have 
previously noted, in 2016 the Russians targeted Democrats. Who 
is to say which party will be in the crosshairs next time? The 
one thing we know is that Vladimir Putin is not a Democrat nor 
a Republican. His interests are to advance Russia's interests 
and undermine the United States. In 2016, I believe that Russia 
got its money's worth in sowing doubt, distrust, and dissension 
in the heart of the American political process. And my fear is, 
with that rate of return, that Russia will continue to return 
to those tactics.
    I don't believe anyone believes that Russia will stop and I 
believe, as a State that has statewide elections in 2017, we 
have to be alert now. That's why last week when we had DHS 
before this Committee, we asked them to share, even if they 
have to share confidentially, the names of the 21 states that 
were attacked by the Russians in 2016.
    I have written and spoken with Secretary Kelly on this 
matter. As the oversight Committee, I believe we are entitled 
to that information and we need to work through a process so 
that State election officials have the security clearances to 
at least be read in.
    And my fear is, as we heard last week, when the top 
election official from Indiana and the top election official 
from Wisconsin--both of those states could not acknowledge 
whether they were part of those 21 states.
    And what was also remarkable was we heard from the State of 
Illinois, which has testified openly that they were attacked on 
a regular basis, yet they had not been informed until last week 
that those attacks originated from Russia.
    That's why the testimony we hear today is so important to 
learn lessons from what's happening in Europe and around the 
world and how on a going-forward basis Western alliances, our 
Western allies, can stop this very critical 21st century 
threat.
    Thank you, Mr. Chairman. I look forward to the testimony of 
our witnesses.
    Chairman Burr. I thank the Vice Chairman.
    At this time, I'd make members aware that we will recognize 
members by seniority for five minutes.
    And I'd also like to make a note to members that when we 
return from next week's Fourth of July recess, we will 
immediately consider the nomination of David Glawe, Under 
Secretary of Intelligence and Analysis at the Department of 
Homeland Security. If members have additional questions for Mr. 
Glawe, they need to be in quickly, so that they can be acted on 
while we're out. I intend--the Vice Chairman and I intend to 
move that nomination as quickly as we possibly can when we get 
back.
    Again, I thank our witnesses for being here today. I will 
recognize from my left to my right, and we'll start with you, 
Ambassador Burns. Welcome.

STATEMENT OF AMBASSADOR NICHOLAS BURNS, PROFESSOR OF DIPLOMACY, 
              HARVARD KENNEDY SCHOOL OF GOVERNMENT

    Ambassador Burns. Mr. Chairman, Mr. Vice Chairman, members 
of the Committee: Thank you very much for this opportunity to 
testify. I appreciate very much the bipartisan commitment that 
your Committee has shown to investigate Russia's interference 
in the European elections and in our own elections.
    There is no doubt about Russia's systematic campaign to 
undermine our 2016 presidential election, the Montenegrin, 
Dutch, French and German elections this year, and Russia 
seeking to diminish the confidence that the citizens of all 
these countries have in their democracies. In this sense, 
Russia's actions pose an existential threat to the democratic 
nations of the West and it requires a swift and serious 
response by Europeans as well as Americans.
    You asked for our recommendations, Mr. Chairman, so I have 
just three.
    First, the United States and Europe need to work much more 
closely together to identify Russia's cyber and disinformation 
attacks as they are being launched; and then we need to work 
together actually to do something about it, to respond in 
tandem to discredit Russia's actions. You saw the campaign of 
Emmanuel Macron do that very effectively. You have not seen 
that in other countries.
    We on both sides of the Atlantic should also make it clear 
to the Russian government that we have our own capabilities 
that can be injurious to Moscow and that we will use them if 
Moscow doesn't cease and desist.
    With this in mind and with the benefit of hindsight, 
President Obama in my own view should have been more 
transparent and specific with the American people during the 
campaign about the nature of the Russian threat. He should have 
reacted earlier and much more vigorously.
    Now, to be fair to him, this was an extraordinarily 
difficult choice. It was a new and unexpected threat. President 
Obama would have likely been accused in the heat of the 
campaign for intervening in the contest between Secretary 
Clinton and Donald Trump. And he did make the right call in the 
end by imposing sanctions on Moscow.
    But we in America and Europe have to learn from this 
experience and try to avoid that in the future.
    Second, the U.S. and Europe should adopt stronger sanctions 
against Russia for its actions to weaken our elections. We 
learned an important lesson in the Iran nuclear negotiations in 
the Obama and George W. Bush Administrations: The sanctions 
were much more effective when the United States and the E.U. 
aligned them together, specifically the financial sanctions.
    I hope the House of Representatives will back and not 
dilute in this sense the very strong Senate sanctions bill 
against Moscow that you passed by a 97-to-2 margin two weeks 
ago. In my view, it would be a grave mistake of President Trump 
to veto such a bill. And with our long national two-century 
debate about the separation of powers in mind, I do think that 
Congress--it's time for the Congress, and not the President, to 
lead the American response to Russia's cyber attack on the 
United States.
    The President has shown that he's unwilling to act against 
Russia and that is why the Congressional review provision in 
your Senate bill makes eminent sense, so that the 
Administration cannot ease or lift the sanctions on Russia 
until Putin's attacks on our democratic elections has ceased 
and until he's met the provisions of the two Minsk agreements 
on Ukraine and Crimea.
    Third, Congress and the President must make resistance to 
Russian interference in the European elections, as well as 
ours, an urgent national priority. I served in the government 
for a long time. I served both parties as a Foreign Service 
officer. And I find it dismaying and objectionable that 
President Trump continues to deny the undeniable fact that 
Russia launched a major cyber attack against the United States, 
regardless of what party he launched it against.
    He's done the same thing in Europe, very systematically. 
And yet, in response to that President Trump has refused to 
launch an investigation of his own. He's not made this an issue 
in our relationship with the Russians. He's taken no steps, at 
least that I'm aware of, with the Congress and State and local 
governments to strengthen our voting systems from future 
Russian hacking of our midterm elections in 2018 and of the 
next presidential election in 2020. There is no indication he's 
asked his senior Cabinet officials to develop a plan to protect 
the United States and to deter the Russians.
    And his failure to act--and I'm a former U.S. Ambassador to 
NATO, I was President George W. Bush's Ambassador--we have a 
political responsibility in NATO to protect each other, not 
just from armed conventional attacks, but from cyber attacks as 
well. That's a clear failure.
    I've worked for both parties. It's inconceivable to me that 
any of President Trump's predecessors would deny the gravity of 
such an open attack on our democratic system. I don't believe 
any previous American President would argue that your own 
hearings in the Senate are a waste of time or, in the words of 
President Trump, a witch hunt. They're not; you're doing your 
duty that the people elected you to do.
    It is his duty--President Trump's--to be skeptical of 
Russia. It's his duty to investigate and defend our country 
against a cyber offensive, because Russia's our most dangerous 
adversary in the world today; and if he continues to refuse to 
act, it's a dereliction of the basic duty to defend the 
country.
    And Russia's going to do this again. You heard Director 
Comey at this Committee say that he felt that Russia would be 
back maybe against the Republican or Democratic Party. Our 
elections will be at risk when that happens and the sanctity of 
our elections will be compromised in the minds of our citizens.
    Let me just close by saying that Russia is really testing 
the leadership and resolve of the West. Americans and Europeans 
are far stronger in our democratic traditions and our values 
than the Russians. And with this in mind, we need to be more 
effective in countering them.
    And we can do that by building bipartisan unity in the 
Congress. And I do want to commend you, Mr. Chairman and Mr. 
Vice Chairman. You've set a bipartisan tone, which is deeply 
appreciated. We can do that by encouraging the President to 
act. We can do that by being very closely aligned with the 
Europeans to take common action. And I think if we can achieve 
those three things, we can defeat President Putin and the 
Russian intelligence services.
    Thank you.
    [The prepared statement of Ambassador Burns follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Ambassador, and thank you for 
your service for a long time to this country.
    Ambassador Garcevic.

STATEMENT OF AMBASSADOR VESKO GARCEVIC, PROFESSOR OF DIPLOMACY, 
       PARDEE SCHOOL OF GLOBAL STUDIES, BOSTON UNIVERSITY

    Ambassador Garcevic. Thank you, Mr. Chairman Burr, Mr. Vice 
Chairman Warner, distinguished members of the Committee. Thank 
you very much for giving me the opportunity to speak on 
Russia's interference in Montenegro's home affairs.
    On October 16, 2016, Montenegro held its parliamentary 
elections. The plotters, disguised in police uniforms, were 
preparing to storm the Montenegrin Parliament and provoke a 
turmoil by shooting at citizens waiting for the election 
results. In the final stage, the plotters intended to detain or 
assassinate the Prime Minister. Acting on a tip from an 
informant, Montenegrin police were able to arrest most of the 
plot suspects.
    In the indictment filed recently, 14 people were charged, 
including two opposition politicians and two Russian agents, 
Vladimir Popov and Eduard Shirokov, members of the Russian 
Military Intelligence Service who are identified as the 
ringleaders of the operation.
    How do we know that? For example, Shirokov, alias Sismakov, 
was posted as the assistant military attache at the Russian 
embassy in Warsaw until Poland declared him persona non grata 
for espionage. The whereabouts of Shirokov and Popov are 
unknown, while Russian authorities never replied or provided 
information about the suspects.
    The coup plot is the culmination of more than 18 months 
long-synchronized actions against Montenegro, which include an 
aggressive media campaign, coupled with open support to pro-
Russian political parties in Montenegro.
    While Russia has been consistent in making threatening 
gestures over Montenegro's NATO bid, they never--they have 
never specified what their intentions are. But for example, 
when Montenegro joined NATO recently, at the beginning of June, 
Moscow commented that in response to Montenegro's anti-Russian 
hysteria and hostile policy, Russia reserves the right to take 
reciprocal measures.
    There are more than 100 Moscow-backed organizations and 
media outlets at this moment in the region. In an anti-
Montenegro media campaign, the NATO invitation is described as 
a move to challenge Moscow. The Montenegrin government is 
labeled as treacherous and corrupted, a pawn in the hands of 
the U.S. and NATO; and Russia, stronger than ever, is the only 
state standing in their way.
    The Orthodox Church too is utilized to promote the values 
of Orthodox Christianity and present them as fundamentally 
different, that fundamentally contradicts the Western world. 
The Russian government fully backs democratic fronts and an 
anti-NATO political coalition dominated by Serbian Nationalist 
Party, known for their pro-Russian affiliation. The primary 
goal of the front and its supporters in Russia was to get the 
Montenegrin opposition united around its political platform and 
prevent the formation of a new pro-NATO government in 
Montenegro.
    Moscow has made no progress in Montenegro and it has 
seemingly lost a possibility of having a strategically 
significant outlet on the Adriatic coast. But Moscow will 
continue exploiting loopholes that exist in most of the Balkan 
states: democratic incapacity, corruption, ethnic tensions, 
countries' economic and military needs, and growing feelings of 
marginalization of those countries on their part to the E.U. 
and NATO.
    The rule of law, independent institutions, and efficient 
law enforcement agencies are the precondition for stability and 
effective protection from Russia's influence. The best way to 
restrain Russian interference is a proactive approach from the 
U.S. and the E.U. side and energetic support for democratic 
reforms in the Balkan states. The door of NATO and the E.U. 
must remain open for states wishing to join those 
organizations. And further American retreat may have a lasting 
adverse implication for Balkan and European security.
    Thank you, Mr. Chairman, and I'm looking forward for your 
questions.
    [The prepared statement of Ambassador Garcevic follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Mr. Ambassador.
    Mr. Sarts.

      STATEMENT OF JANIS SARTS, DIRECTOR, NATO STRATEGIC 
               COMMUNICATION CENTER OF EXCELLENCE

    Mr. Sarts. Thank you, Mr. Chairman, Vice Chairman.
    From the time our Center has been established two and a 
half years ago, we've been closely watching Russian information 
operations and influence operations across Europe. We've 
produced 18 different studies on the methodology, ways how 
Russia tries to affect the outcomes of our democratic processes 
and our choices.
    In the election process typically there are three venues 
they try to pursue. First, to support the candidate of their 
choice. To do that, they use the money and they give the 
support of all the media, traditional media networks that they 
are controlling, to the candidate, to the proportion as nowhere 
near of a normal democratic process, with lies, with fakes, 
etcetera.
    Secondly, they try to get the sensitive information on the 
other candidates to undermine their credibilities. Typically, 
they try to achieve it through hacking into the systems, but 
that is not the only way. They use very large segments of 
disinformation. Fake news is one of the instruments of choice. 
They're disseminating that through the same information 
networks they operate within, but they also use fake news site 
at the networks. They use trolls, both human as well as 
robotic, to amplify the message. All of that was seen in the 
recent French election.
    Let me just go through quickly what was the French response 
and what I think we should take note of. First, there was media 
cooperation. Media were teaming together, and very different 
sorts of media teaming together to work to verify what is a 
factual reality. They were supported by the online activist 
groups like CrossCheck and also big Internet companies like a 
Facebook and Google joint effort to make sure that the facts 
also in the digital space take the preeminence over the 
falsehoods.
    Secondly, they were assuming and knowing they were going to 
be hacked. There were many hack attempts. And of course, all of 
us who have been in the cyber-security business know you can 
design only as strong response as possible. There is always a 
human factor. So what the French idea has been, they trapped 
the hackers. They fed them the irrelevant information in large 
amounts, making the dumped information irrelevant as well.
    And thirdly, that was how both media, public, and the 
authorities treated the hack. First, the authorities, based on 
the French law, said it is illegal to use these hacks for 
further circulation.
    Secondly, most of the media refrained for going for these 
hacks, understanding the way they are trying to be manipulated 
into the election process.
    Based on that, I'll share some recommendations. First, 
societal awareness. That is a critical thing to be achieved. 
The nation that is aware it's under attack is far more 
resilient than the one that is oblivious of that.
    Secondly, as demonstrated by the French case, working with 
the media is essential, both for their role, but also for their 
understanding how they might be manipulated in the process.
    Thirdly, we still treat it, the information environment, as 
a game of golf. It is not any more. It's rugby. In rugby, you 
need to have a very good situational awareness. We have to 
build tools to know what are the echo chambers, what are the 
information bubbles, who is trying to penetrate them, what are 
the robotic networks trying to push, what are the third parties 
or the outside governments, what kind of data they're looking 
into your social, societal systems. That is one of the key 
elements that we have to possess to be able to respond 
effectively to that game of rugby.
    Next, cyber defense. It is a must. Every single element of 
the election process has to be able to do a good cyber defense, 
both with two elements, the technical piece and the human 
piece. These have to be there.
    And lastly, we cannot succeed if we don't work together 
with the technology companies. That's the area where most of 
the activity takes place and where it is most successful. And I 
think we can make them one of the good partners in making sure 
that the facts and truths are much more preeminent in that 
environment than any falsehood.
    Lastly, Mr. Chairman and Mr. Vice Chairman, the reason the 
Russian activity succeeds is because we have not paid 
attention. They're using their old tricks and borrowed know-how 
from our technologies and our marketing know-how. Therefore, I 
see no reason why they should keep winning. To me, it's about 
focusing on the problem, bringing different actors across a 
society together, and then collectively I do believe we have 
all the potential to win this for us.
    Thank you.
    [The prepared statement of Mr. Sarts follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Mr. Sarts.
    Dr. Stelzenmueller.

STATEMENT OF DR. CONSTANZE STELZENMUELLER, BOSCH SENIOR FELLOW, 
                     BROOKINGS INSTITUTION

    Dr. Stelzenmueller. Thank you and good morning. Chairman 
Burr, Vice Chairman Warner, distinguished members of this 
Committee: It's an honor for me to be invited here today to 
testify before you on the critical issue before this panel, 
Russian interference on the European elections and specifically 
on the federal election on September 24 in my country, Germany.
    Russian interference in the European political space is 
strategic and is aimed at destabilizing the European project. 
Germany is the fulcrum with which to achieve this goal. Weaken 
Germany and you diminish the E.U. and the European project. And 
conversely, because Germany has orchestrated the European 
consensus on sanctions against Russia, it has become the main 
obstacle for Russia in pursuing its interest in Europe and 
Ukraine.
    Russian interference in Germany, as we know, has occurred 
for a long time. It is not limited to these elections, nor will 
it stop thereafter. As for the election itself, there is a 
general consensus in my country that there will be meddling; 
the only question is when and in what form that will take.
    Technical manipulation of the elections, however, is 
unlikely. We use paper ballots and we have hardened the 
computer infrastructure that we use to aggregate the data. The 
real target of Russian interference in Germany is voters' 
heads. They're trying to hack our political consciousness. For 
this, they use a broad spectrum of tools, from propaganda, to 
disinformation, to hacking and denial-of-service attacks to, of 
course, more classical means, such as individual or 
institutional agents of influence.
    Attribution and intent, of course, remain elusive. This is 
one of the most difficult problems, not least because not even 
the Russian authorities ordering interference are monolithic or 
cohesive. And execution is often outsourced or delegated, 
including to what President Putin has called ``patriotic 
hackers.''
    The impact of Kremlin interference, if we're honest here, 
is also hit and miss, often miss. In many ways, its meddling in 
European elections over the past year has produced the exact 
opposite of what was intended. It has produced stable, 
democratic, and non-populist governments that are pro-European 
Union and indeed pro-NATO and pro-American. The populists have 
lost out almost everywhere and NATO and the E.U., I'm happy to 
say, are experiencing a renaissance of purpose. And in the 
German race, what looked a neck-to-neck race for a while at the 
beginning of the year is now looking quite different. 
Chancellor Merkel is holding a steady 14-point lead.
    But that does not mean--and I urge you to consider this--
that Russia cannot still do significant damage.
    As for countermeasures, Germany has certainly taken a while 
to take note of the threat, but it has been making up, racing 
to make up for lost time over the past two years by hardening 
its defenses and creating more resilience. That's not to say 
there's still not much more to be done, particularly on the 
civil society front. And German politicians certainly need to 
do better at articulating their narrative against Kremlin 
disinformation.
    And, of course, it helps that Germany is not the first 
country to face this threat. In fact, we come at the end of a 
long string of elections, and we can learn from our friends and 
allies, particularly from the French case just explained by 
Janis Sarts.
    That said, we have no reason whatsoever as Germans or as 
Europeans to be complacent. In fact, the successes of Russian 
interference, such as they are, are a measure of our failures 
and we need to examine those.
    Now, what form could Russian interference in the September 
24 elections take? Obviously, if there were a major terrorist 
attack, if there were a return of the refugee crisis, that 
could be exploited by propaganda. It's conceivable that there 
would be further severe DDoS attacks, or further hacks or, in 
fact, a leak of the 2015 hack substance. Sixteen gigabytes were 
taken away; we haven't seen them yet.
    But it is just as likely that a visible Russian attempt to 
use such events would backfire, as it has before. So they need 
to tread carefully there. And interference could just as well 
take the form of ongoing careful probing and testing of our 
vulnerabilities, combined with a continuous slow drip of toxic 
disinformation, as is happening now, all the time.
    So Germany will have to remain vigilant, but also flexible 
and relaxed. We mustn't overdramatize the scope, intent, or 
coherence of the threat. That would be to walk in to the main 
psychological threat of this propaganda, which is to think the 
threat is bigger than it actually is. We are a strong and 
vibrant democracy and we can fight this in the marketplace, 
too. However, it is beyond any doubt that Germany and all of 
Europe are experiencing a phase of historical volatility and 
drift. And in such a time, friends and allies matter more than 
ever. And here, our relationship with America, is key.
    We understand that Europe needs to do more for its own 
defense and take on more of the burden of transatlantic 
security relationship off the United States. And we have, as 
many here know, and as Nick knows, we have already taken many 
steps towards this goal. But the alliance as such, our 
political, economic, military, and intelligence partnership, is 
crucial for the preservation of the European project. And an 
America that feels ambiguous about the value of this alliance 
could be perceived by the Kremlin as the ultimate 
encouragement.
    I therefore respectfully have only one recommendation for 
you, or rather it is a request: Stand by us.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Dr. Stelzenmueller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Doctor, and thank you, all of our 
witnesses.
    A reminder that we will recognize members by seniority for 
up to five minutes. The Chair recognizes himself.
    Two questions to all of you. They are yes and no, yes or 
no. Do you have any doubt that Russian interference is driven 
by Putin himself?
    Start with you, Ambassador Burns.
    Ambassador Burns. No doubt about it.
    Chairman Burr. Ambassador.
    Ambassador Garcevic. The same answer. No doubt.
    Mr. Sarts. No doubt.
    Dr. Stelzenmueller. None.
    Chairman Burr. Any doubt that Russian interference is or 
has happened in the U.S. and European elections?
    Ambassador Burns. It has happened systematically.
    Ambassador Garcevic. It happened, it happens, and it is 
going to happen.
    Mr. Sarts. It has happened.
    Dr. Stelzenmueller. A little difficult to vary on this, but 
yes.
    Chairman Burr. Ambassador Garcevic, what would have 
happened in Montenegro had Russia succeeded in the 
parliamentary elections?
    Ambassador Garcevic. You can imagine, I would say, first 
what could have happened is that The democratic front would 
withdraw sanctions which were imposed by my country on Russia, 
because my country was among the few in the region to impose 
sanctions immediately after they were imposed by the E.U. in 
order to show, to demonstrate, full alliance with the E.U. 
Common Foreign and Security Policy. That could be the first 
immediate step to be taken.
    The second, in terms of far-reaching goals, they would turn 
the direction of the country from Western-leaning to Eastern-
leaning, which means that I can imagine that in years from now 
Montenegro would become a satellite of Russia in the Balkans.
    Chairman Burr. Mr. Sarts, was there any evidence of Russian 
involvement in the U.K. most recent elections?
    Mr. Sarts. Of course, both RT and Sputnik made their effort 
to have an effect on the election. But I would not say--I would 
not say that there has been a significant pattern of Russian 
involvement in the U.K. election that we have seen. I would 
also argue that it is always--we have a pattern that Russia 
requires time to construct elaborate operations to attack the 
election systems. So where there's very little preparatory time 
for enhancing the networks, activating the networks, and 
planning for these things, they are not really efficient.
    Chairman Burr. I took from your testimony that media 
outlets are directed in many cases by Russian government as to 
how they cover elections, what they say or don't say about 
candidates. So just the fact that maybe RT and Sputnik had a 
narrative that was different in Britain than maybe the 
mainstream press, that would be a sign of Russia trying to 
influence the outcome, would it not?
    Mr. Sarts. I have no direct evidence to say that the 
particular narratives as we see in these outlets during the 
election period in the U.K. would have been directly directed 
from Kremlin, although there is a regular monthly meeting 
between all the key editors of media in Russia with the Kremlin 
officials, where reportedly they coordinate the messaging.
    Chairman Burr. So it's not a news outlet as we would define 
in the United States, independent?
    Mr. Sarts. No.
    Chairman Burr. If I understood your testimony, again, I 
think there was a suggestion that America's social media 
platforms knew that they were part of a coordinated attack, 
especially as it related to France. Did I hear you correctly?
    Mr. Sarts. The media platforms have the data to see where 
the information originates, and I know they've been also 
assisting the French media to make sure that within these 
platforms the information that these consortiums find as 
factually correct have the preeminence.
    Chairman Burr. Media outlets have the ability to understand 
whether a bot has been used to make it look like there's 
tremendous public support for an issue versus real public 
support. Is that an accurate statement?
    Mr. Sarts. Well, yes, it is. Actually it is more than just 
the media themselves. There is increased number of research--
and also we are about to publish a regular report on robotic 
networks and social media--that these robotic systems are 
pushing the specific narratives. What we've seen is the same 
robotic networks working on the Dutch elections, pushing the 
RT-Sputnik-Russian narrative, or for that matter also in a 
French election pushing the Le Pen narrative, or country, also 
pushing all the fake stories about Emmanuel Macron.
    Chairman Burr. Last question. Nick Burns, what should the 
U.S. response be? And should that response to election 
integrity and intrusion by the Russians be coordinated with our 
European partners?
    Ambassador Burns. I think it should. I think there are 
three things we can do, Mr. Chairman. And I hope the 
Administration is beginning to do some of this. First is our 
intelligence agencies have to be linked up to understand the 
threat as it's happening.
    Second, if laws are being broken in both Europe and the 
United States, our judicial authorities ought to be working 
together to prosecute people and put them behind bars.
    And third--and this will probably happen through Secretary 
Tillerson and others and our ambassadors overseas--in the 
response--and you saw this brilliant response by the Macron 
campaign to push back--we can be lashed up with the Europeans 
in a response to an attack, whether it's in Europe or the 
United States. We're in the same NATO alliance, all the 
countries represented here today are. It's a political alliance 
as well as a military alliance. We ought to be working 
together.
    And finally, I think that the Senate is on the right track 
with your sanctions bill. It's a tough bill. I know it's caused 
some controversy in some countries in Europe. But frankly, 
American companies--European companies shouldn't have 
advantages to sell into the Russian market that American 
companies do not have. And I think your bill makes that point.
    Chairman Burr. Thank you, Ambassador.
    Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Let me again thank all the witnesses for their testimony, 
and thank you again for your unanimous agreement on the nature 
of the Russian threat and the attacks that were created here in 
the United States.
    I want to go back. In our March public hearing, one of our 
witnesses, Clint Watts, testified that then-candidate Trump, 
quote, ``used Russian active measures at times against his 
opponents,'' end of quote. He cited then-candidate Trump's 
coordination or use in calling out WikiLeaks. We saw candidate 
Trump continue to use terms like the elections being 
``rigged,'' the same type of terms that were used by the 
Kremlin in their propaganda efforts.
    Do you agree with what Mr. Watts drew as a conclusion, 
that, at least inadvertently, candidate Trump was actually 
advancing the goals of the Russian propaganda efforts? I'd like 
to hear any of your comments on that, starting with you, 
Ambassador Burns.
    Ambassador Burns. Senator, just two quick points. First, I 
don't have any independent knowledge about the Trump campaign 
working with----
    Vice Chairman Warner. I'm not asking that. I'm just asking 
whether his comments about elections being rigged, calling on 
WikiLeaks--it appeared, and Mr. Watts drew the conclusion, 
that, at least inadvertently, it seemed that then-candidate 
Trump was actually aligned with some of what Russia's 
propaganda efforts were trying to sow the same kind of chaos 
and questioning of our democratic processes.
    Ambassador Burns. Right. I thought it was just important to 
say I don't have information. But when candidate Trump did 
encourage the Russian government to find more of Secretary 
Clinton's e-mails, I thought that was an irresponsible 
statement.
    Vice Chairman Warner. Anybody else want to comment?
    [No response.]
    You're taking a safe diplomatic effort, all of you. I 
appreciate that.
    I imagine I will get the same response, because I again 
share very much, Ambassador Burns, your comments earlier that 
the lack of interest shown by the President of even 
acknowledging this threat or taking this threat--urging his 
Administration to take this threat seriously and lay out a 
coordinated whole-of-government approach to what will be a 
threat in 2017, 2018. I would argue that Putin and his cronies 
had a pretty darn good rate of return on the number of rubles 
invested in their activities to kind of take on our election 
system.
    Mr. Sarts, one of the questions--I want to go back to 
commend you for your good work on the 18 reports that you've 
done on the robot trolling and how the Russians are using 
technology tools to exponentially increase the power of their 
fake news.
    You've said--you've cited reports that at least 8 percent 
of Twitter accounts are actually bot accounts and thereby do 
not represent an actual person. Facebook--I was out recently 
with Facebook, and they pointed out the fact that in the French 
elections they took down about 30,000 fake accounts right 
before the election. I commend them because right after the 
American election Facebook acted like they had no 
responsibility for policing fake news. I think they've moved 
into a more responsible position.
    But I'd love to hear from all of you what role you feel 
these platform companies that control so much information--
Google, Facebook, Twitter, et al.--have in this new world. And 
again, we'll go down the list, starting with you, Ambassador 
Burns.
    Ambassador Burns. Senator, very briefly, I had the 
opportunity to be at Stanford for 5 months last year; met a lot 
of these people who work in this space. And I was impressed by 
the number of people--take YouTube for example--that they now 
dedicate to try to filter out hate speech. And that's 
commendable.
    If that's the case, there ought to be an ongoing dialogue 
between the U.S. Government, our national security agencies, 
and these companies to try to filter out Russian propaganda. 
It's a direct assault on our country.
    I was impressed by Mr. Sarts' testimony. I thought it was 
quite convincing that there has to be an integration of the 
technology companies and our government on this issue.
    Vice Chairman Warner. I concur. I'd love to hear the rest 
of your comments, please.
    Mr. Sarts. Well, first, I also just came yesterday back 
from Silicon Valley, where we talked with a lot of these 
companies on these issues. First, there's a growing market, 
black market, for robotics in social media. Some of it is 
rather innocent, but much of that is of some kind of criminal 
activity. And that is going to be a growing concern for people 
in a digital environment to actually understand that they're 
really interacting with a human being, instead of large numbers 
of robots supported by artificial intelligence.
    To counter that, the companies that have these platforms 
are one of the key players. I was heartened by the discussion 
back there. They are taking it seriously, probably slightly too 
late. But there are--most of these big companies are investing 
in and thinking about how they can be an active supporter of a 
democratic process, not a disrupter.
    And secondly, there is a growing number of the technology 
research on the subject that we can rely on. And as Ambassador 
Burns said, and I've said in my initial statement, that is a 
must that we work together. If we don't, we will not succeed in 
the digital environment.
    Vice Chairman Warner. Have seen any cooperation in Germany? 
My time is expired.
    Dr. Stelzenmueller. Yes, sir. German politicians and 
policy-makers have made trips to Silicon Valley to talk to the 
big media companies and tech companies like Google, Facebook 
and Twitter. I've been told the initial conversations were less 
than, shall we say, less than cooperative. There seemed to be 
no inclination to self-police and there also was no inclination 
to help. That has significantly changed, I gather.
    Now, the German justice minister has just put out a draft 
of a law called the Netzwerkdurchsetzungsgesetz--and we use 
these long words to annoy our allies. But, basically, it's a 
draft law to help in enforcing hate speech rules in Germany, 
which are quite strong, obviously, with roots in our history.
    I as a trained constitutional lawyer and other critics of 
this law, have mixed feelings about this. I would like the 
political marketplace to regulate itself. But if significant 
actors, very powerful actors that have control over algorithms 
that can really shape the marketplace without citizens even 
noticing if they refuse to self-police, I believe such laws 
become necessary. I think this has to be an ongoing 
conversation between business, citizens and the state, to 
decide where responsibility for regulation properly lies.
    Chairman Burr. Senator Risch.
    Senator Risch. Thank you.
    Ambassador Burns, you know, we're pretty used to dealing 
with hyperbole in this Committee with the kind of things that 
we hear, and I want to talk to you for a minute about your 
statement that Russia is the most dangerous adversary that we 
have. With all due respect, if you sat on this Committee I'm 
not sure you'd reach that conclusion.
    I think there's a lot of us, with what we hear about what's 
going on in North Korea and some of our other adversaries, that 
Russia certainly is a dangerous adversary, but when you have 
someone running a country like Kim Jong Un and with what we 
know about what he's probably going to do if his administration 
is threatened, I've got to tell you that you might be slightly 
off mark when you say that that Russia's the most dangerous 
adversary that we face.
    But don't take that as a criticism that I think that Russia 
is not a dangerous adversary. I would just caution that it 
falls in a group of countries, and there's others that are more 
dangerous.
    You were critical of or are critical of President Trump and 
what he's thinking right now. You would agree with me that the 
Russians have taken no active measures in an election while 
Donald Trump has been President? Is that a fair statement?
    Ambassador Burns. Senator, thank you. May I just say in 
response to your first comment, if you would allow it?
    Senator Risch. Please.
    Ambassador Burns. I agree with everything you said about 
North Korea, but Russia can do greater damage to us from a 
nuclear weapons perspective and certainly in trying to draw a 
new dividing line in Europe. So it's a respectful disagreement.
    Senator Risch. I appreciate that and let me ask you this. 
Do you think it's more likely that that would come--assuming 
that North Korea had nuclear weapons that they could deliver, 
is it more likely that it would come from Russia or from North 
Korea?
    Ambassador Burns. Well, I think the problem--the threat 
from Russia is multifaceted. It's not just from nuclear 
weapons. It's also about dividing Europe.
    Senator Risch. No question about that.
    Ambassador Burns. So I think they are both a problem----
    Senator Risch. I agree with that.
    Ambassador Burns [continuing]. A big problem for the United 
States. I just made the statement--I was echoing General 
Dunford, when he was confirmed.
    Senator Risch. Back to my last question, you would agree 
with me that the Russians have taken no active measures in an 
American election while Donald Trump has been President? Is 
that a fair statement?
    Ambassador Burns. Well, I think it might--I actually don't 
know. I don't know what have----
    Senator Risch. Have we had any elections since he's been 
President?
    Ambassador Burns. Yes, we've had Congressional elections.
    Senator Risch. And you think that the Russians have taken 
some active measures in those elections?
    Ambassador Burns. I don't know the answer to that question.
    Senator Risch. We do know that the Russians took active 
measures in the last presidential election?
    Ambassador Burns. Well, I think the intelligence 
communities of the United States are confirmed on that, yes.
    Senator Risch. I think we're all in agreement with that. 
That--and who was President of the United States when that 
occurred?
    Ambassador Burns. That was President Obama, as you know.
    Senator Risch. And you know he was aware that this was 
going on?
    Ambassador Burns. Yes.
    Senator Risch. Indeed, he's admitted that he talked to Mr. 
Putin about that, is that correct?
    Ambassador Burns. So you heard my testimony about President 
Obama. I have great respect for President Obama. This was a 
difficult decision.
    Senator Risch. I hear that.
    Ambassador Burns. I think that President Obama, with the 
benefit of hindsight, should have acted more resolutely, 
quickly, to be transparent with the American people. But he did 
take action. And what disturbs me about President Trump is that 
he's not investigating, has taken no action.
    Senator Risch. Got that. But I'm talking about somebody 
that could have done something about this while it was going 
on. You're aware that President Obama talked to Mr. Putin about 
that, are you not, in the summer of 2016?
    Ambassador Burns. That's what the news reports say. I also 
know that the Obama Administration briefed the eight senior 
members of Congress early on, that there were public statements 
made by Jeh Johnson, I think on October 7th. So they did take 
action. It's not as if the Obama Administration just was silent 
on this issue.
    Senator Risch. And indeed, when Mr.--or when President 
Obama told Mr. Putin that we knew that they were taking active 
measures, that was indeed a classified--that was classified 
information, was it not?
    Ambassador Burns. Well, you know, I think if you're the 
President of United States and you're trying to deliver a stiff 
diplomatic mission, you're well within your rights to tell 
Putin what you think he may be doing.
    Senator Risch. I couldn't agree with you more.
    Ambassador Burns. In fact, that's the object of the 
conversation.
    Senator Risch. Couldn't agree with you more. And that's 
actually the purpose of classified information. It's no good if 
you collect it and don't use it. Fair statement?
    Ambassador Burns. Well, not always. Sometimes you don't 
want that information ever to see the light of day.
    Senator Risch. What else should--what else should President 
Obama have done?
    Ambassador Burns. You know--and this is Monday morning 
quarterbacking by me
    Senator Risch. I understand that.
    Ambassador Burns. And I appreciate the fact that he finally 
did take action on the sanctions. I think if you go back and 
look at it, the American people in my judgment deserved to know 
what was happening clearly. You have to ring the village bell. 
And we should have had a more immediate response that was 
painful to the Russians, whether that was immediate sanctions 
or some type of offensive action that we could have taken by 
covert means against them. And so I think, there are a variety 
of options. I wasn't there, so I don't want to micromanage 
this.
    Senator Risch. I appreciate that.
    Ambassador Burns. But I do think that he could have done 
more. But my testimony clearly shows that President Trump has 
taken no action whatsoever and I think that's irresponsible.
    Senator Risch. Got that. But the description you gave, you 
would agree with me that the Obama Administration did not take 
significantly--the significant action that was needed, 
including informing the American people, which would have gone 
a long ways to countering what the Russians did? Fair 
statement?
    Ambassador Burns. Well, I think that the Obama 
Administration should have taken greater action, but the more 
pertinent question today is what our current President is not 
doing, and that has implications for Europe and they're very 
negative.
    Senator Risch. To you it's the more pertinent. To me, 
what's more pertinent is what should have been done by the 
commander-in-chief who was in charge at that time.
    My time is up. Thank you, Mr. Chairman.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Many have said this is actually the crime of the century. 
If you think about it, it is. If you think about the fact that 
it's conducted by intelligence agencies, we know Russian 
intelligence to be relentless and ruthless, and it all 
happened, and it contributed toward the defeat of an American 
presidential candidate, who happened to be the first woman 
running for that office. Well, that's not true, but in a very 
serious, ineluctable way it is. They targeted 21 states. They 
went into 21 states.
    I've been sitting here, Nick, listening to you, listening 
to your colleagues. I have great respect for you. My own view 
is that if in fact this is the crime of the century, if in fact 
it's going to lead to other crimes being committed in the 
future, that we together have a responsibility to hit back. The 
question comes, are sanctions really the effective way to do it 
or do we do it in the cyber world?
    But I don't think that we can sit here and see the amount 
of destruction that has been done, the defeat of a candidate, 
the intrusion into 21 State systems, the continuation even now 
with spear phishing, what's happening in Europe, and, you know, 
the Iron Bear is on a march.
    How do you stop that? And we have had certain abilities 
discussed of how to develop a hit-back. And it's hard for me to 
believe that--sanctions make them angry, but sanctions don't 
really do anything. There is a downside to a cyber war. On the 
other hand, the United States of America cannot see the 
critical infrastructure of an American democratic election 
destroyed by Russia.
    What--I'd be very interested if anyone would be prepared to 
talk about what Europe and America could do together to plan, 
to prepare, and to hit back.
    Ambassador Burns. Senator, I'd just say briefly, our 
sanctions have to be aligned. They'll be much stronger if we 
actually work together with the Europeans to align what they do 
in sanctions with us, number one.
    Number two, it's my impression we can do much more in the 
way of intelligence, but also in active work together to 
respond verbally to the propaganda.
    But number three, I think you're right, and I so testified, 
that we have to think of other means. And we have capacity that 
if we wanted to use it, we could. And that has to be aligned 
with Europe.
    Senator Feinstein. Bear in mind, these aren't fringe 
people. These are two, at least two of the three intelligence 
services of Russia. That's a big deal. The President of Russia 
committed his intelligence services to hit our election system. 
Do we just, oh, well, maybe we shut off this sanction or that 
sanction? Maybe we think it's going to just go away? They show 
no signs of going away.
    I've been on this Committee for a long time. I have never 
seen a time when, with full confidence, every single one of 
America's intelligence agencies have come together and say they 
have--they have full confidence that this was orchestrated by 
Putin and he used his intelligence services to do it.
    Mr. Sarts. Well, if I may, I think the first thing that we 
have to do is cover our backs. And that is building the 
resilience. That was the things that we all three talk--four 
talked about.
    Senator Feinstein. Could you define ``resilience''?
    Mr. Sarts. Ability of the democratic process to withstand 
the attacks, overt or covert, to influence, with a malicious 
intent from outside, the societal choices within the election 
system, within the political process. And being able to, 
irrespective, of these----
    Senator Feinstein. With what acts, sir? We do stand in a--
there's no question about that. But----
    Mr. Sarts. Well, I can go through the things that I 
recommended: society being aware; cyber defense being on a high 
level; having been able to operationalize the information 
battlespace, and many of these.
    Secondly, I wanted to say in fact, if you look at Russian 
documents, they believe we are attacking them, and I think they 
really believe that. So--which is, I think, a paradox.
    What we have to really look for is that we're not attacked 
by Russians, we're attacked by Kremlin. And what we can do is 
actually help also people within Russia to recognize what is 
the actual realities. I think that is the most powerful weapon, 
the truth, the truth that Kremlin is hiding away from their own 
citizens. And that is I think the weapon that we have which is 
the most mighty.
    Senator Feinstein. My time is up. Thank you.
    Chairman Burr. Senator Rubio.
    Ambassador Garcevic. Excuse me. May I add a few words? I 
personally lived in a country which was under sanctions and I 
have my personal experience of being a citizen of a country and 
living a normal life in a country under sanctions. For 
sanctions to start working and to start bearing fruits, you 
need time. It took like nine years for Yugoslavia, which was 
smaller, in economic terms very smaller than Russia, to see 
sanctions working.
    I can imagine that in the case of Russia, we have to 
endure. Perseverance is needed, and sanctions will start 
bearing fruits at certain point. So, I don't think that we 
should stop or rethink this strategy.
    On top of it, someone mentioned, I think the Ambassador, 
mentioned importance of NATO, because NATO is not only military 
organization. NATO is security and political organization. 
Since it was formed in 1949, U.S. has seen NATO as a pillar of 
Euro-Atlantic bond. And the countries who are members of NATO 
are there because of a set of values that they share, which 
means that we have to keep ourselves together and strong 
through NATO, which includes a number of measures. Not only a 
deterrence, which is taking place right now in Europe, but also 
a number of other measures, because it's not only that Europe 
is under attack. Its values are under attack. Values are under 
attack, values of democracy, values of parliamentary democracy, 
value of liberal democracies are under attack.
    Russia is backing those groups in Europe, leftist or 
rightist, those who challenge the very core values of liberal 
democracy, because those who challenge from within those 
democratic systems and would like to see those systems and 
values eroding.
    So in power with some hard-core or hard power measures, we 
have to put emphasis also on soft power, because this is what 
Russia uses against democratic systems. I think democratic 
systems in soft-power are much better off than Russia and may 
offer more than Russia can offer to countries.
    Chairman Burr. Doctor.
    Dr. Stelzenmueller. Madam Senator, I would like to add one 
small remark to what's already been said, and that is, if I may 
say as an ally and a citizen of your ally of over 60 years: Do 
no harm. Do not question the alliance. Do not question the 
alliance that is greatly in your strategic interest with 
Europe, but that is also in our interest. It is of existential 
importance for us. And an American government, a White House, 
that questions the validity of that alliance, that questions 
the validity of the Article 5 mutual defense commitment, does 
more to undermine our security and our safety than many things 
that the Kremlin does.
    We are all vibrant Western democracies. That's not to say 
we don't have flaws and vulnerabilities. And we should not only 
address those, but we I think as Western democracies can 
address them together. We can look at them together.
    And I would add only one thing. Sanctions do work, perhaps 
even more as a political statement of cohesion and will, and as 
such they have had a tremendous impact on Russia. They have 
left a deep impression on the Kremlin. They have also done some 
economic damage, but they have above all been an expression of 
Europe's and America's will to stand together against the 
threat toward Ukraine and its neighbors and the threat against 
the European project and American interests there. So they do 
work.
    Thank you.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Thank you all for being here.
    My hope is that this Committee's work will produce a 
document that doesn't simply detail what happened, but how they 
did it, so that we can prevent--so that we can take steps, 
preventive steps to address this in the future, because I don't 
believe it's going away any time soon, for one simple reason: 
It worked.
    And I think we're all--a lot of people are focused on a 
particular electoral outcome. I think the broader design was to 
sow instability, chaos, division in a country that already had 
great political division. I don't think anybody can doubt that 
that's the case.
    I mean, just the sheer amount of time and energy that's 
been spent by this Committee, this Congress, the press and 
everybody else on this issue of Russia alone must be deeply 
gratifying to the people who authorized these measures. And the 
way it's exacerbated our ability to get work done on a number 
of other things has been deeply impactful.
    And so I really, truly hope that as we do our work we will 
learn what are the best ways to confront it, within the 
confines of the following. We have a First Amendment. So I 
understand that places like France are able to block out. You 
know, when the stuff came out about Macron they had a blackout 
at the end period, and so a lot of that was not widely 
reported.
    I don't mean this in a--I'm not attacking the media. I'm 
just saying, one of the most powerful unwitting agents of 
Russian influence was the mainstream media, that when these e-
mails were being leaked from WikiLeaks there was a lot of focus 
on what was in the gossipy aspects of it and not so much the 
origins of what it was all about.
    And, because it's a--we have the First Amendment in this 
country, and so the people who did this understood that certain 
information would get widespread coverage. I'm not advocating 
censorship. I'm telling you, that is what they'll use against 
us. So, we have that different from what they have in Europe 
and the like.
    I want to know, what has worked? Has anyone successfully 
confronted this threat and proven to us things you can do to 
alleviate the sting of these efforts? I point to an article in 
``The New York Times'' by several authors on May 9th of 2017. 
It talks about steps taken by Macron's campaign, including 
creating dozens of false e-mail accounts, complete with phony 
documents, to confuse the attackers.
    I'm curious, Ambassador Garcevic, about the efforts in 
Montenegro, a small country that has far closer historical, 
cultural, and religious ties to Russia, and where Russian state 
media and propaganda run rampant. They were unable to dissuade 
the people there from electing a pro-NATO government. What 
works? Because--has anyone begun to figure this out? Because we 
need to do it.
    Mr. Sarts. Well, first, what works is people don't like to 
be manipulated, and when they know somebody's out there for 
them to change their mind and get under their skin they become 
more cautious. That's the first thing. And we've seen in a 
number of countries where the public becomes aware, it's much 
harder, like instantly, to get the effect the Russians are 
trying to achieve.
    Secondly, it is I think very important in these, especially 
misinformation. The Marcon case, you know it is going to 
happen; you do a contingency plan. And I would say your 
contingency is not that they're not going to break in. There's 
always a way through the human fault you can get into the 
systems.
    You actually, as they did, you do a trap. You do a trap. 
That's another thing that has clearly worked. And that takes 
also the knowledge, preparation, and acceptance that it is 
happening.
    And thirdly, in the fake news cycles we see it is always 
that the fake news comes in first, creates emotion and gets 
wider. If you are able to get into that cycle first, you are 
limiting the effect, if not taking it away as such. And we've 
seen cases in Lithuania where the fake stories about German 
soldiers raping a teenage girl were trying to circulate, where 
the government and media actually made sure the first news 
somebody ever sees was: There is the fake news news that this 
and this. And they, those government and the media worked their 
part, and that never got traction.
    So there are quite a number of good, successful, tactical 
and strategic examples that one can look at.
    Ambassador Garcevic. If I may add two things. What was 
Russia's goal? What is Russia's goal in the region? It goes 
beyond Montenegro. Russia's goal is to prevent the expansion of 
NATO and the E.U. It's not only about Montenegro. It's about 
other countries that are wavering or that are not fully on 
either side.
    You know, if Montenegro is considered or can be considered 
now as a lost case for Russia, others are not lost case yet. 
And Russia is trying to, by making example in Montenegro, is 
trying to send a signal to others: what we are willing to do or 
what we can do if you even dare to go the same way. This is 
really from a strategical point of view, it comes through the 
Balkans, this corner of Europe, important for Russia.
    But it comes to how media campaign was carried out in 
Montenegro also speaks that Russia has really a diversified 
approach. And it adopted its approach toward Montenegro how to 
reach out to people in Montenegro, and not only Montenegro, but 
in the region.
    Montenegro, first of all, we are not used to watching 
Russian TV. We are not used to reading Russian newspapers in 
Russian. We are not like people in Ukraine, for example. We 
don't have Russian communities living in Montenegro. So they 
therefore decided to open, to establish, a number of offices of 
Russian media in the region that would broadcast news in all 
local language, and then to use local networks to republish 
those news. First fabricate news, make either fake or false 
news, then those news will be broadcasted or republished 
further by local news. Then people will trust local news or 
local media, if not Russian media. After some time Sputnik and 
Russia Today have become the most popular among local 
population.
    And finally, because of cultural and historical and 
religious closeness between two nations, they really 
effectively use church and state. My society is in principle a 
traditional society and people trust priests and trust church. 
And since we are also Orthodox population, as Russians are, so 
they use church to propagate Orthodox style of life or Eastern 
Orthodox style of life and to present to the people, to 
citizens of my country, that it's about identity and it's about 
cultural roots and it's about dignity; and that Eastern 
Christianity is fundamentally different than Western world. And 
if we join NATO or the E.U., at the end of the day we're going 
to lose our identity, and it's about dignity.
    So, this is how effectively Russia uses different channels, 
different mechanisms, in order to reach our people and to send 
message which will be, how to say, in order to earn the hearts 
of people they would like to have on their side.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you.
    And thank the four of you. This has been a very valuable 
panel.
    Here in our inquiry, I've focused on what I called the 
follow-the-money issues, and concerns about Moscow's funding of 
pro-Russia political parties and groups in Europe, of course, 
is not new. Two years ago, the Committee directed the National 
Intelligence Office to submit an intelligence assessment on 
this issue. What is different now is we are looking at this 
attack on European democracies to help us understand what has 
happened to our democracy.
    So, Director Sarts, I want to start with you because you 
have studied Moscow's financing of pro-Russian political 
figures. And let me just kind of see if we can go through a few 
questions here. Have you been able to determine if Vladimir 
Putin employs particular strategies to develop relationships 
and curry favor with political figures in Europe? And if so, 
what would those strategies be?
    Mr. Sarts. First, there are two strategies to incite 
different political actors across Europe into cooperating with 
Russia. First is financial incentives. It can work both through 
the opening of business opportunities vis-a-vis Kremlin-
controlled companies, or it can work also through a number of 
funds controlled by Kremlin that send in further the money to 
different Russia-controlled NGOs, and then, therefore, further 
on, disseminating the financial means to incite people into 
cooperating.
    The other venue is nonfinancial, which is giving the 
Russian information power as the backdrop to whoever's message 
they're trying to promote and whose political point of view 
they are trying to use for whatever their strategy----
    Senator Wyden. Does President Putin make the decision 
himself to support political figures in Europe, based again on 
what you know?
    Mr. Sarts. Well, we as a center look explicitly at the open 
source. So I would not be able on my available information to 
make that conclusion.
    Senator Wyden. Does Russian assistance to its allies in 
Europe involve helping political parties, individual political 
figures, associates of individual political figures, or all of 
these different approaches?
    Mr. Sarts. They do.
    Senator Wyden. They use all of the above.
    And is there any information available on what mechanisms 
Putin prefers to provide financial assistance to political 
figures in Europe?
    Mr. Sarts. In an open space, there have been a number of 
reports from the European intelligence agencies sketching out 
without great detail some of these practices. But of course, 
there is much more which is not within the open public space 
that is known on these activities.
    Senator Wyden. And one last one for you, Director Sarts. 
Your statement referred to Russian cyber-attacks, including the 
2015 Russian hack of the German Bundestag. Last week, the U.K. 
Parliament came under what British authorities called a 
sustained and determined attack on all parliamentary user 
accounts, although the source of the attack has not been 
identified.
    The reason I ask is my understanding with respect to these 
issues is every attack is going to be different. Every attack 
is going to be different because once you've engaged in one 
particular strategy, you've got people preparing for that and 
they move on to the next. What's your advice to us, based on 
your analysis in Europe, for how we deal with this 
extraordinarily important issue of developing a cyber-attack 
strategy, a preventive cyber-attack strategy?
    Mr. Sarts. Well, first, I think you give too much credit to 
the Kremlin operations. In fact, what our research says, much 
of the tool set remains the same. There is a variation and 
there is an experimentation, but it is not more than the 20 
percent of the overall activity.
    The generic advice is that we have to think slightly 
differently about what the cyber-attack is. We typically think 
of it as a venue to get into the infrastructure and get the 
data. But I would argue that we have to think of two 
parameters: of course technical as very important; but at the 
end of the day, the purpose of the attack to get into the 
minds. And we have to actually, when employing our own 
countering strategies, focus both on technical as well as in 
the cognitive aspects of the defense.
    Senator Wyden. My time is up. I'm glad you think that the 
Russians are less clever than cyber-attackers elsewhere. I have 
reservations about that.
    I just want to make one last point. I know my time is up, 
Mr. Chairman.
    Ambassador Burns, I'm a fan of yours, and I just heard one 
word that concerned me with respect to the relationship of 
government and the technology companies. I think, and probably 
you didn't really really mean it--you talked about integrating 
the companies and the government. I think what you were meaning 
was better communication between the government and the 
companies, and I just wanted to make that point.
    Thank you, Mr. Chairman.
    Oh, if you would like to respond.
    Ambassador Burns. Very quickly. Thank you. I meant that 
there should be communication, not that there be formally 
integrative efforts. Thank you.
    Senator Wyden. I understand.
    Chairman Burr. Senator Collins.
    Senator Collins. Ambassador Burns, it's good to see you. 
Thank you for joining this panel this morning.
    I'm struck as I listen to the testimony of all the 
witnesses that the approach that was used in Montenegro, in 
France, in Germany has been much more proactive. It's bolder. 
It exposes the falsehoods that are out there. And it is a far 
more visible effort.
    Ambassador, you were somewhat critical of President Obama, 
and I would be even more critical of his response. And I would 
call it behind the scenes, ineffective, and tardy. It wasn't 
really until after the election that sanctions were imposed and 
that the January 6th, 2017, report on the extensiveness and the 
scope of Russian interference in our elections was released by 
the intelligence community.
    So there seems to me to be a big difference in the approach 
that's taken by our allies and the approach that was taken by 
President Obama. And as you pointed out rightly, President 
Trump's Administration does not seem to have any strategy to 
deal with this going forward at this point.
    But then I hear about the efforts taken in France, for 
example, where there was a coordinated effort among government, 
the media, the campaigns, and even the technology companies. 
And there's one headline that says ``French newsrooms unite to 
fight election misinformation.'' I just can't even imagine a 
headline in the United States saying ``American newsrooms unite 
to fight election misinformation.''
    So are our systems so different that, while we can learn 
from our allies much more successful efforts to counter Russian 
active measures, is that even possible in our country, given 
the very different role of the media here? And I'm asking 
Ambassador Burns that question.
    Ambassador Burns. Thank you, Senator. You know, I think 
we're learning the lessons as we go along. And I think Director 
Comey was right when the Committee asked him about this, that 
he thinks that the next target in our country could be either 
party. And I applaud the bipartisan effort to try to learn the 
lessons.
    The Europeans have learned lessons from what went wrong in 
our election. And what seems to have worked well in the Macron 
campaign is speed and decisive action and transparency so that 
actually all the French people were made aware of the threat. 
And they have a right to that information.
    That was the basis of my criticism. And I just want to say 
this. I have tremendous respect for President Obama. This is 
Monday morning quarterback by somebody who is not in the 
government, but you're asked to testify and I think this is one 
of the lessons that we have to learn from the Europeans, how 
they've done.
    And what's missing, it seems, is formal integration of 
effort by the governments of Canada, the United States and 
Europe. That's a step that the Trump Administration could 
decide to take, which would be very helpful both in analysis 
and also in action.
    Senator Collins. I completely agree with you that 
visibility and transparency are absolutely critical, and that 
is an important lesson from what happened last fall.
    Ambassador Garcevic, I want to ask you about Montenegro 
because the State of Maine has a special relationship with 
Montenegro, and I can see by your smile that you're aware of 
that. We're part of the State Partnership Program and our 
National Guard has members stationed in Montenegro to assist 
the military and we like to think we were helpful in getting 
you ready for your NATO accession, which I strongly supported.
    But Montenegro is a really interesting example, because 
Russia was not able, despite a tremendous effort, to dissuade 
the people there from electing a pro-NATO government last 
October. So my question to you is this: Why were the Russian 
influence efforts unsuccessful in Montenegro, which is a small 
country that has far closer historical and cultural, religious 
ties to Russia, and where the Russian state media and 
propaganda are prevalent, even as their efforts appeared to be 
much more successful--that's probably an overstatement, but to 
have some success--in sowing the seeds of doubt and discord in 
the 2016 election in our country?
    Ambassador Garcevic. That's very difficult to answer in a 
couple of minutes. Sometimes--yes, we are a small country. 
Russia is big. I would say that Russia looked down on us as 
just peanuts in the Balkans that they can put in order easily. 
But it turned out not to be the case. Sometimes we had simply 
luck when one of the computers of one of our people in the 
mission to NATO was hacked by Russia. Simply, we were lucky 
because another mission--I don't want to mention name--which 
had been under attack with the same virus, computer virus, 
helped us register--detect that virus even before it started 
working, you know? And then we turned to NATO and then, with 
the help of NATO people, we checked all computers, not only in 
the mission to NATO, but also in the Ministry of Foreign 
Affairs and Military Defense, and government offices, and so 
now that we were not affected.
    Sometimes, as I said, we had luck. But in more broader 
terms, I would say that Russia didn't penetrate economically, 
though at the first glance, on the surface, many seeked out 
Montenegro to explain how Montenegro was packed with Russians 
living there and with Russian money pouring in for years. But 
actually, Russian investments in Montenegro were mostly 
investments in real estate. We are not dependent on energy. The 
Russians didn't invest in banking sector. There are no 
investments in any of our important industrial branches in 
Montenegro, so they couldn't simply sway us easily.
    Even when we imposed sanctions on them, they didn't know 
how to react economically on us, so they turned to some 
political measures in order to show that they are angry because 
of it.
    And then, I would say, government, though we were small, 
what we tried to do, particularly when it comes to cyber 
attacks, we are not capable to hit back, definitely, but we 
tried to build a partnership with our NATO partners and we seek 
help from them.
    Then, at the end of the day, when it comes to cyber 
attacks, it's about a human factor. And then we tried to build 
up vigilance and, you know, government issuing warning signs to 
its agencies to be careful how to deal with sensitive 
information.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Ambassador Burns, you've talked a lot 
about the sanctions bill we passed here in the Senate. If 
Speaker Ryan and the House of Representatives doesn't take up 
that Russia sanctions bill, what kind of message do you think 
that that would send to Vladimir Putin?
    Ambassador Burns. I think a message of weakness, because 
the Senate by a huge margin has teed this up. It's the right 
thing to do to have a painful type of leverage against the 
Russians. And if it's diluted in the House and if the Trump 
Administration encourages the House to do that, which is what 
one hears, then I think the Russians are going to receive a 
mixed message here, not a stiff message, which they need to 
receive.
    Senator Heinrich. Do you think it will send--make him more 
or less likely to interfere in the 2018 and 2020 elections?
    Ambassador Burns. You know, I read the transcript of your 
hearing with Director Comey. He told you that he thinks it's 
going to continue.
    Senator Heinrich. Yes.
    Ambassador Burns. Until we have better defenses, until 
we've gone on the offense.
    I think that President Trump should consider, maybe 
Secretary Tillerson should do this--exactly what President 
Obama did. Go to Putin directly, as President Obama did. It was 
after our election, as Senator Collins pointed out, and just 
say, there are going to be consequences, and spell them out. 
That's actually probably the most effective thing that the 
Trump Administration should do.
    Senator Heinrich. Should we take these kinds of 
cyberattacks and election manipulation as seriously as we would 
take a military action or an economic threat to our country?
    Ambassador Burns. Well, as you know, they're different. 
Obviously, a military action is immediate, consequential. You 
have to respond within hours.
    I actually think this is--what they try to do 
systematically to the Dutch, the Montenegrins, the French, the 
Germans and the Americans is discredit democracy in the eyes of 
our citizens. I use the word ``existential'' in my testimony. I 
don't think it was hyperbole. I think it was the right word to 
use. So I think we need to meet squarely. And all of us have 
suggested a multitude of ways that we can do that.
    Senator Heinrich. I don't disagree. I think one of the 
challenges that you've mentioned is that the current President 
has been unwilling to respond or even acknowledge the validity 
of the Russian hostile actions in the election. I'm curious 
what that means for what we as members of the Senate can or 
should do to advance a conversation with our European allies 
about sanctions. And I would certainly like your opinion on 
that, but I would open it to the other members on the panel as 
well.
    Ambassador Burns. That conversation has to be held. 
Normally in this situation, as you know, the State Department 
and the White House would be talking to the Germans, the 
Austrians about the consequences of the Senate bill. I don't 
know if this happened this time. But we're in this phase--we've 
talked about the separation of powers for 200 years--where it's 
my own view that Congress needs to play the leading role 
because I perceive Congress to be tougher against Russia.
    Senator Heinrich. Nature abhors a vacuum.
    Do any of you want to add to that? Dr. Stelzenmueller.
    Dr. Stelzenmueller. Of course. It's well known that German 
politicians, senior German politicians, the chancellor and the 
foreign minister, have protested the sanctions bill. And this 
is, of course, because German companies, and not just German 
companies, other Europeans as well, are invested in Nord Stream 
2.
    I'm not a big fan of this project, frankly. But I'm far 
more concerned about unilateral American sanctions that aren't 
discussed with the Europeans, that are just put out there and 
we have to deal with them. The fact of the matter is that we 
had actually for years been asking America to allow the export 
of American LNG to the European market, and that it had been 
Congress that was resisting this.
    So I think the lesson of this experience is for us to, as 
allies, discuss what is in the interest of the alliance and 
where we can work together. And I think that would be of 
significant importance as a deterrent towards Russia.
    Senator Heinrich. While I have you, Doctor, when President 
Trump questioned the value, the relevance of NATO, whether we 
should even keep it as a structure, who do you think benefitted 
most from that?
    Dr. Stelzenmueller. Well, I've already said that. I think 
that that helps the Kremlin, and it's not great. I also don't 
think it's in America's self-interest to question that alliance 
because you have significant interests in Europe and in 
Europe's periphery, and the alliance with us Europeans helps 
you pursue those national self-interests.
    Senator Heinrich. I could not agree more.
    Mr. Sarts, before my time runs out, you talked a little 
about how we should try to take the truth directly to the 
Russian people because of the filter that they receive so much 
of their information through. How can we cut out Vladimir Putin 
and speak directly to the Russian people?
    Mr. Sarts. Well, I think it is very clear and evident that 
is the same environment, which is the digital one. And if one 
takes note of the recent protests in Russia against the 
corruption, it was very striking how young the crowd was. And 
it was also very clear that these people don't anymore get 
their world view from the TV. It's all about also social 
networks. And yes, that's the way you can get the truth back to 
them. And I'm sure Kremlin will try to put up new elements to 
block us. But I think that is an environment where we can get 
back to them.
    Senator Heinrich. I want to thank you all for your 
testimony today.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Let's try a yes-no question first, just in the interest of 
time. You know, the Russian economy is failing, not nearly the 
country it could or should be. Does Putin benefit in Russia 
from getting credit for interfering with elections in our 
countries? Ambassador.
    Ambassador Burns. I think he does. I think it builds him 
up.
    Ambassador Garcevic. Yes, politically he does.
    Mr. Sarts. It is one significant part for his domestic 
policy to benefit from it.
    Dr. Stelzenmueller. Sorry, I can't do a yes or no. I'd say 
it's both. In the short term, he benefits. In the long term, he 
loses and Russia loses.
    Senator Blunt. But the short-term benefit is?
    Dr. Stelzenmueller. The short-term benefit is it validates 
the narrative that we're all just as bad as Russia and, 
frankly, Russians are better off living in Russia because their 
life at least is stable.
    The reality is that a lot of Kremlin interference has 
backfired and backfired visibly, and we've been learning from 
that. And it has taught us to review our complacencies. It's 
taught us to defend our democracies. That's a good thing. But 
we also are up against a significant enemy and one that has a 
lot of energy and patience.
    Senator Blunt. And in terms of--I was going to ask what we 
should do about these channels of miscommunication like in our 
country Sputnik and RT. Starting with you, Dr. Stelzenmueller: 
What have you--what, if anything, have you done to try to 
respond or immediately contradict information coming in? I 
mean, you're much closer to this than we are, but it's no 
harder to keep out here than it is there.
    Dr. Stelzenmueller. Well, can I just say, I arrived here in 
November of 2014 to start working at Brookings, and I was 
stunned by the amount of RT commercials--sorry--posters, 
advertisements around Washington. There were these big, 
expensive ones, the back-lighted ones on the bus stops, and 
then there were the ones that were plastered all over 
construction site fences. Amazing. I'd never seen anything 
quite like that.
    So clearly, there was a big investment here directed at 
normal Washingtonians, and that----
    Senator Blunt. Is there no investment like that in Germany, 
or----
    Dr. Stelzenmueller. Not in the same way, but there is 
investment.
    Senator Blunt. Would you allow it if they wanted to do 
that?
    Dr. Stelzenmueller. You know, I tend to think that they 
can, if they want to buy advertisement, you know, it's a free 
country, okay? And these are companies. They can do this. I'm 
not a big fan of nanny state endeavors to protect us from 
things that we can perfectly well see through. And I believe 
that Americans can see through this as well.
    Where it becomes more insidious is where they're doing 
covert stuff, where they're buying people, where they're buying 
institutions. And so I have faith----
    Senator Blunt. Your view is that's more insidious than so-
called ``fake news''?
    Dr. Stelzenmueller. Well, fake news is insidious if our 
consumers, if our citizens, are not media-literate.
    Senator Blunt. Well, let's go on down the line. Mr. Sarts, 
what--in other countries, what do they do about RT and other 
Russian outlets?
    Mr. Sarts. Well, in the information space it's actually 
quite simple. If somebody doesn't have the credibility, they 
may message as much they want. There is no effect from that.
    And I think there is an interesting example where Sputnik 
opened their offices in the Scandinavian countries, and then 
within a year's time they had to close it. Nobody listened to 
them.
    Senator Blunt. What about in Montenegro?
    Ambassador Garcevic. Sputnik has no office in Montenegro. I 
think that--I barely can remember that any of those Russia-
based media have offices in Montenegro itself. But they have 
offices in neighboring Serbia and from there they penetrate 
Montenegro, because they know that in the case, in the 
Montenegrin case, government may revoke a license at any 
moment. So it is not the case in Serbia. Because we speak more 
or less the same language, they can do that easily. And then 
from there, their news will be rebroadcasted or reprinted and 
published in Montenegro.
    Senator Blunt. And Ambassador, what, if anything, should we 
do about these known mediums that they use of miscommunication?
    Ambassador Burns. Senator, I think two things. One is 
always attach an adjective, a couple, before when we talk about 
them: ``the Russian government propaganda station RT.'' So 
expose them for who they are, because they are Russian 
government.
    Second, be very careful if you ever go on it, because 
they'll distort what you say. Don't give them the platform that 
they want.
    Senator Blunt. Let me try to get one more question in to 
you. I actually agree with your current position on 
Congressionally binding sanctions. I assume you were much more 
inclined to have a flexible position when you were at the State 
Department?
    Ambassador Burns. That's absolutely true. I am a creature 
of the Executive Branch. I always thought it's better to 
preserve the President's authority to act. But in this 
particular case, since the President is not acting, I think the 
Congress has to take that responsibility.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Starting with just a couple of comments. One, I want to 
associate myself with Senator Rubio's question, which I think 
is the real key question of this hearing. What can we do to 
defend ourselves? And I'd like to ask each of you--you've 
already testified, talked about it--to submit a written, very 
short, half a page, bing, bing, bing, here are the five things 
that we can do to defend ourselves. I think that would be very 
helpful.
    Secondly, what we are seeing here, it seems to me, is the 
invention and expansion and implementation of a new kind of 
warfare. And it's a kind of warfare that is particularly 
effective against democracies. Valeriy Gerasimov, who's the 
chief of the general staff of Russia, calls it ``weaponizing 
information,'' and said in 2013 that he believes this is--we 
are engaged now in informational conflict.
    Putin's defense budget is one eighth of ours, but he is 
playing a weak hand very well and has found a cheap way--and 
when I say peculiarly effective against democracies, because 
this is where public opinion matters. In many other countries, 
public opinion doesn't have that great a role in how policy is 
formed.
    So a couple of short questions. And I think, Ambassador 
Burns, you just answered this. Any doubt that RT is an arm of 
the Russian government?
    [No response.]
    Senator King. No doubt. Everybody agrees.
    Secondly, I have heard in a previous hearing in a different 
committee that the Russians were looking around, sniffing 
around buying commercial TV outlets in Europe. Have any of you 
heard of that? Is that----
    Mr. Sarts. Yes, there have been in Baltic states the cases 
where they've tried, but governments have tried to block these 
possibilities.
    Senator King. Well, that certainly it seems to me, is one 
of the--one of the things that we have to watch.
    Another--I think this is a yes or no question. Was what was 
done here in 2016 absolutely consistent with what the Russians 
have been doing in Europe for some years? Essentially the same 
modus operandi? Mr.--go ahead.
    Mr. Sarts. Well, it was, but there were a number of new 
elements and some more risk-taking than we used to see.
    Senator King. So they're getting more sophisticated. Is 
that that accurate?
    I think, Mr. Sarts, you have said something several times 
that's consistent with my understanding. Some members of this 
Committee were in Eastern Europe over a year ago in the spring 
of 2016. We were in Ukraine and Poland. When we asked them how 
they--and the first thing they wanted to tell us is, ``Watch 
out for the Russians in your elections.'' And we didn't 
understand how prescient that was at the time.
    But in any case, then we said, ``How do you defend 
yourself?'' And the answer was, I think, exactly what you've 
said. They said, ``The best defense is if the people know 
what's happening, and they can say, oh, it's just the 
Russians.''
    And that you've characterized as societal awareness, and 
that's what I think is one of the most important roles of this 
Committee, is to educate the American people that, whatever we 
do, whatever defenses we come up with, this is going to keep 
happening. And the best defense is for them to be, I think you 
used the word, ``digitally literate,'' or I can't recall the 
term. But we need to understand that they're going to keep 
doing this and we need to learn to shrug it off.
    Ambassador Burns, do you have any thoughts on that?
    Ambassador Burns. I much agree, and I think that's the 
lesson to learn from what happened to the Obama Administration. 
They were caught unawares. It was new. They didn't appreciate 
the extent of it, and it was a lack of speed and lack of 
transparency. That is a problem.
    Senator King. Well, but I do think it should be noted, 
because there's been some discussion here, they did release on 
October 9 a comprehensive memo that this was going on, that 
really listed all the elements that were later listed in the 
January. And in the heat of the campaign, nobody paid much 
attention to it. And I understand. I think the dilemma they had 
was, do we go public in a big way and be accused of putting our 
thumb on the scale of the election and those kind of things?
    But I agree, I think a more aggressive response would've 
been--would've been appropriate in 20-20 hindsight.
    One thing that hasn't been mentioned too much is the use of 
kompromat. Is that not part of the Russian strategy, use of 
salacious material against candidates they don't like? That has 
happened in other countries, has it not?
    Dr. Stelzenmueller. Well, it's one of the open questions 
about the 2015 Bundestag leak, the German federal legislature, 
whether they were looking for kompromat and found it. They have 
not posted anything yet. But, you know, that's kind of the 
James Bond version. They may just have--also have done this for 
the simple purpose of espionage. The point about kompromat is 
that often you don't find out because you're not supposed to.
    Senator King. Exactly.
    Yes, sir?
    Mr. Sarts. Just kompromat has been very heavily used 
typically by USSR. I think the relative importance has 
decreased because they've learned actually having one is not 
always essential. You might make it up.
    Senator King. Oh, I see. You don't even have to have the 
data. You can just make something up, ``King Kicks Dogs Every 
Morning,'' and then I'm denying it for the next three months, 
or much worse.
    Well, I want to thank you again for your testimony. This 
has been very informative and I hope you will give us some 
written responses about defenses because that's an important 
role of this Committee, to prepare ourselves for what everyone 
has suggested is not a one-off in 2016.
    It will continue to happen and it will continue to happen 
on both sides of our political divide in this country. Putin is 
not a Republican. He is an opportunist. And the next time, this 
attack could come in the opposite direction, but it's still a 
corruption of our democracy.
    Thank you all very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman. And I've learned 
several things today, including that Senator King kicks dogs 
every morning, and I was completely unaware of that.
    [Laughter.]
    Let me ask this panel a quick question, and it goes back to 
one of the heart of the questions Senator King was just 
bringing up before, is the deterrence. Let me ask in a more 
specific way: What price should Russia pay for this type of 
interference? It's one thing to say we're informing our people, 
we're trying to do it rapidly. I've heard that from several of 
you to say, the speed of the information and the response is 
exceptionally important. Finding cooperation between legitimate 
media sites, that they will actually help identify here's--
here's false, here's true, try to get that out.
    But what price should they pay? And let me bring up why. 
When the Russians were cheating and doping their athletes, in a 
very short period of time Russia paid a very big price for that 
by their athletes not going to the 2016 Olympics and saying, I 
know you trained, but you doped your athletes and you were 
caught for that. It's just within the last 24 hours, that their 
doping authority is even allowed to start testing their 
athletes again, they've been on suspension that long. They paid 
a price for that. We would hope that that would be a deterrent. 
What price should they pay for this type of aggression?
    Yes, ma'am?
    Dr. Stelzenmueller. This is a really difficult question, 
politically, legally, militarily. And the main reason why it's 
so difficult is attribution. And even when intelligence 
services know how to attribute, they may not want to make that 
public. And that is the largest conundrum that we are dealing 
with here.
    So we may, I think, be looking at asymmetrical retaliation, 
as it were, political, economic. And I think the biggest price 
that Russia can and should pay is failure--failure to undermine 
us, failure to undermine our democracies, failure to undermine 
our alliances. That is something we can do, and I think it is 
even more important because it's a consistently--it's a 
remaining vulnerability that is even more important than the 
question of retaliation.
    Of course, we--and American and German and European 
officials have been doing this all the time, is to make it very 
clear to the Russians that we know what they're doing, that we 
want them to stop, and that we have ways of reacting.
    But the actual legality and viability of symmetrical 
reaction is a huge legal and military problem, as I'm sure you 
know.
    Senator Lankford. Yes, and one of the things you mentioned 
before, Dr. Stelzenmueller, is the export of LNG. That's 
something that was debated extensively here in Congress and a 
large part of that conversation was--the conversation became 
this is about American energy companies somehow being more 
profitable while the Europeans were saying this is about 
geopolitical power. If you don't sell us LNG, then the Russians 
can turn the valve on and off and they control a large part of 
Europe. For geopolitical influence, we need to do that. That 
became debated long-term here and then was finally determined, 
yes, we're going to sell LNG, and now Europe has another outlet 
and Russia has competition on it and is a benefit to our 
alliance and our long-term connection.
    Other ideas that anyone would share as far as the price 
that Russia should pay?
    Mr. Sarts. Well, if I may, actually one of the things that 
they expect us to talk soft about these things. That's kind of, 
you know, part of their plan: There'll not be direct, strong 
response. I thought when Emmanuel Macron met Putin and the way 
he did it in Versailles was not a pleasant experience for 
Putin. So, being direct, instead of what they thought will be 
this polite talk.
    Secondly, the machinery they're using against us is 
extremely important for Kremlin to control their own 
population. So if we are able to dismantle it, then we--we 
actually, as I've said, we bring in more truth into the 
internal Russian discourse.
    Senator Lankford. Other ideas and thoughts?
    Ambassador Burns. I would just say, Senator, it's a really 
tough question for both President Trump as it was for President 
Obama. Can we find a pressure point as important to Putin as 
the integrity of our elections are to us? And I think Constanze 
is right, that's probably going to be asymmetric.
    Senator Lankford. Okay.
    Ambassador Garcevic. Maybe to add a sentence, that in the 
introductory it was mentioned that Russia's goal is to drive a 
wedge between the E.U. and the U.S. I think that one of the 
things that must be done is that actually this Euro-Atlantic 
bond must exist and unity between the E.U. and the U.S. must 
remain. On top of what was said, asymmetric threats ask for 
asymmetric response.
    Senator Lankford. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you very much, Mr. Chairman.
    And thank all of you for being here. First of all, I was 
very impressed in seeing our NATO allies, what all you have 
done in trying to thwart what Russia has done as far as 
meddling in your affairs. Sweden has launched a nationwide 
school program to teach students to identify Russian 
propaganda. In Lithuania, 100 citizen cyber sleuths, dubbed 
``elves,'' link up digitally to identify the feedback that 
people employ on social media to spread Russian disinformation. 
They call their daily skirmishes ``elves versus trolls.''
    France and Britain have successfully pressured Facebook to 
disable tens of thousands of automated fake accounts used to 
sway voters close to election time, and it has doubled to 6,000 
the number of monitors empowered to remove defamatory and hate 
filled posts.
    All of this, I mean, it's amazing, I think that you all 
have been dealing with this. And it says here, Latvia has 
undertaken to ferret out clandestine Russian meddling since it 
broke free of the Soviet Union in 1991.
    I think it goes back to what, Mr. Sarts, you just had said. 
They have been controlling their people by misinforming them, 
by basically not giving them the facts, giving them what they 
want them to know. When you all broke, when Latvia broke in 
1991, you were able at that time to set your people free by the 
truth.
    Have you been able to have any insurgency into Russia, 
getting the truth in there, using their own weapons against 
them, their own networks against them?
    Mr. Sarts. Well, none of the governments that I know of 
have made a decision to do that. There are civic society groups 
that try to do that and bring in the different tools that might 
be there. Some of them--and I would argue in front of this 
Committee, humor, as awkward as it might be, is one of the best 
tools I would suggest to penetrate the control system. We in 
fact recently produced a report on humor as a tool of 
communication. In five hours since, we had a response from 
Maria Zakharova. And it went on for whole months, including 
President of Chechnya Ramzan Kadyrov doing a video as a 
response to our research of humor. I think that tells you a 
story.
    So, there are many ways you can get in.
    Senator Manchin. Okay. Let me ask this question then. 
There's been reports--it's open source--that Putin was directly 
involved giving direction in the United States elections, the 
last presidential election. Our intelligence basically said he 
was directly involved. He gave the order to do what was done. 
Do you have that same verification in your countries and in 
NATO allies that Putin was directly involved? And have you 
identified him as being directly involved so that people would 
know where it's coming from?
    Dr. Stelzenmueller. If I had that information, I probably 
wouldn't be sitting here. But there is a general assumption in 
Germany that the President's office is directly and copiously 
involved in giving orders to Russian interference. The actual 
execution is delegated very broadly to a variety of actors.
    Senator Manchin. Anybody.
    Ambassador Garcevic. When it comes to Montenegro, I can 
only repeat or quote what our state prosecutor mentioned just 
like a few weeks ago. He said that behind these events in 
Montenegro are nationalist structures from Russia and that 
certain Russian authorities were involved at a certain level. 
But we at this moment, we cannot make that conclusion that 
Putin himself was giving orders to what was going on there.
    Senator Manchin. If I can follow up with one. The rhetoric 
coming from our White House under this Administration, has it 
caused our NATO allies to start moving toward contributing two 
percent to the defense spending? Or is it because of their 
concern of Russia's aggression?
    We'll let all of you answer. I want Ambassador Burns too to 
get in on this.
    Dr. Stelzenmueller. Yes. The chancellor has said repeatedly 
that we will achieve the two percent by 2024, which is the date 
at which it was promised. And we're increasing our defense 
budget by 8 percent this year.
    We're also doing a lot of other things which are working 
toward----
    Senator Manchin. What was the cause?
    Dr. Stelzenmueller. I think the proximate cause was Russian 
hostility----
    Senator Manchin. More so than the White House rhetoric?
    Dr. Stelzenmueller. I'd say that the policies and rhetoric 
of this Administration have been contributing to reinforcing a 
sense of urgency.
    Senator Manchin. Got you. Ambassador Burns?
    Ambassador Burns. Senator, I think 20 of the 29 NATO allies 
have increased defense spending since the Russian invasion of 
Crimea and Eastern Ukraine in 2014. That was the primary cause.
    But I must say, President Trump's been right to raise this 
issue, as all of our Presidents have. And I think he has had an 
impact on the internal debate. Canada is one country. They 
spend barely one percent of their GDP in defense. So, I think 
he's gone about it sometimes in a way that's not effective.
    Senator Manchin. Unconventional.
    Ambassador Burns. Unconventional. But he's right to raise 
it.
    Senator Manchin. Thank you very much.
    Yes, sir.
    Ambassador Garcevic. Just to add that last year only, other 
members of NATO increased defense spending by around $2 billion 
U.S.
    Chairman Burr. Sen. Cotton.
    Senator Cotton. Thank you.
    This hearing has been informative on the specific question 
of Russian active measures in the United States and in Europe. 
Of course, that's just one small part of Russia's efforts over 
the decades to undermine Western democracies, to try to divide 
our alliance. I think we explored most of those points today.
    So I want to respond more broadly to what I think are two 
myths that have been propagated here, mostly by my Democratic 
colleagues, but by some of these witnesses. And those myths are 
that somehow President Trump is weaker on Russia than was 
President Obama; and second, that somehow NATO and deterrence 
is undermined by the United States, rather than by Europe.
    So first, let's review what's happened in the first five 
months of this Administration. President Trump has bombed the 
Khan Sheikhun military base in Syria. He has shot down Syrian 
planes. They have shot down Iranian drones, thereby showing 
that Russia is unable to protect its two main clients in the 
Middle East.
    We're on the verge of deploying more troops to Afghanistan, 
where Russia has been meddling with ever-greater intensity in 
recent years. And we finally proposed a budget that increases 
our military spending, albeit not enough, that accelerates 
ballistic missile defense. And our domestic agencies are doing 
everything they can to promote more oil and gas production in 
the United States.
    By contrast, President Obama famously pushed the reset 
button a few weeks into his tenure, six months after Russia 
invaded Georgia. He mocked Mitt Romney for calling Russia our 
number one geopolitical foe. He asked Dmitry Medvedev in a hot 
mic moment to wait until after the election to discuss missile 
defenses because he would have, quote, ``more flexibility.''
    Despite bipartisan support in the Congress, President Obama 
refused to send lethal weapons to Ukraine. He stood idly by as 
Russia returned into the Middle East for the first time in 40 
years in Syria. And he stood idly by, as we've heard today, in 
the 2016 election.
    So, I would dispute the premise that somehow President 
Obama was any tougher or stronger in defense of U.S. interests 
as against Russia.
    Second, the myth that somehow NATO and deterrence is at 
risk because of the United States, not Europe. Talk is cheap. 
Deterrence is about the military balance of power. It's not 
about magic words. National leaders can call Article 5 sacred 
or sacrosanct or inviolate or any other pretty word they want. 
But Europe's collective failure to meet the two percent goal of 
defense spending has underinvested in our common defense by 
something on the magnitude of $100 billion to $120 billion per 
year. Vladimir Putin can see the reality of what national 
leaders in Europe think about our common defense, no matter 
what words they use.
    Moreover, it's well known that Russia is in flagrant 
violation of the Intermediate-Range Nuclear Forces Treaty. 
They're also in violation of the Open Skies Treaty. But 
European leaders continue to resist the Trump Administration's 
efforts to bring Russia back into compliance with those 
treaties.
    Dr. Stelzenmueller, as you noted, the German foreign 
minister has protested the Russian sanctions bill that passed 
the Senate 97 to 2, because Germany does business with Russian 
companies in the construction of the Nord Stream 2 Pipeline, 
which by the way they shouldn't be building in the first place 
if they are that worried about Russia and want to deter Russia 
in Europe.
    While we're on the topic of the German foreign minister, he 
said a few months ago that the 2 percent goal is unlikely to be 
obtained and politicians shouldn't make promises they can't 
keep. Sadly, I'm afraid he's right. Germany increased its 
budget last year by 8 percent. This year its defense budget is 
proposed to be increased by only 4 percent, yet a Forza Agency 
poll suggested that a majority of Germans oppose such an 
increase.
    More alarmingly, a Pew poll from last month asked 
Europeans: If Russia got into a serious military conflict with 
one of its neighboring countries that is our NATO ally, do you 
think our country should or should not use military force to 
defend that country? Here were their responses. The Dutch said, 
72 percent yes, 23 percent no. That is great for the Dutch. 
They are good allies. Poles, 62 to 26; Americans 62 to 31--by a 
2 to 1 margin, very proud of our country. Canada, 56--58 to 31; 
France, 53 to 43; Spain, 46 to 46--not great. Brits, 45 to 43. 
Germans, 40 to 53 would defend a NATO ally.
    So my time is almost expired. I'll just ask one question. 
Given that so many of my remarks have focused on Germany and, 
Dr. Stelzenmueller, you're obviously the subject matter expert 
on that country, what is the matter with Germany?
    Dr. Stelzenmueller. Thank you, Senator, for your questions 
and for your remarks. I've already said that I am not a fan of 
the Nord Stream 2 project, and I think a number of many of my 
German experts, friends, agree with me. There is a substantial 
debate within German politics about the use of this project, 
politically.
    On the German defense budget, I think, again--I can only 
reiterate what Chancellor Merkel has said, who looks likely to 
win this election again, that Germany is on course to fulfill 
this promise by the time it is supposed to fulfill it. Anybody 
who has ever looked at defense budgets and attempted to 
increase them knows how many past dependencies, complications, 
there are in actually expanding forces. We would have to double 
our defense budget to do this.
    But I can assure you from my personal experience, many 
conversations last week in Berlin, we are racing to do this. In 
fact, only last week--or two weeks ago, I was on the stage in 
Koblenz together with the German chairman of the chief--the 
equivalent of the chairman of the joint chiefs, at the bidding 
of the Defense Ministry, to explain to Germany's armament 
bureaucracies why they have to work faster, more flexibly, and 
more creatively to accomplish the promises that we have made to 
NATO. And I assure you that this was a very serious discussion.
    Now, it will also not have escaped you, because we've been 
talking about this all day, that we're in an election, and that 
Gabriel is a member of the opposite party, although he is in a 
coalition with the chancellor, and therefore he has to say 
these things. He has also said other things. For example, the 
first time he went to Moscow he told Foreign Minister Lavrov, 
his counterpart, that he did not believe in the post-Western 
world Lavrov had spoken of in that Munich Security Conference, 
that this was wrong, that we very much stand by the idea of the 
Western--of the West and Western alliances, and that this is a 
question of shared values and not of geopolitical location.
    So, as for the Pew poll, I'm as unhappy about that as you 
are and I know many Germans who are unhappy about it as well. 
Maybe that is also rooted in our cultural memory of the Cold 
War. I am old enough to remember the Cold War, where we knew 
that if the Article 5 came to pass, there would be three weeks 
of conventional warfare, then it would move to nuclear, and 
then my country would be a heap of ashes. I think that that is 
a memory that informs that kind of judgment.
    But I know that German politicians of all parties have made 
it clear beyond a shadow of a doubt to Russia, to Moscow, and 
to the Kremlin and Mr. Putin himself that any violation of 
Article 5 will have us all standing there as one, as allies, to 
defend an attack on NATO territory.
    Chairman Burr. Senator Harris.
    Senator Harris. Ambassador Burns, can you tell me what you 
believe has been the impact on our reputation with our allies, 
in Europe in particular, as a result of this Administration's 
failure to acknowledge that Russia hacked and attempted to 
manipulate the election of the President of the United States? 
And if you believe there has been an impact in terms our 
standing with our allies in Europe, do you believe that it's 
going to have an impact on our ability to protect ourselves and 
guard against what should be a predictable attack in our 2018 
elections by Russia?
    Ambassador Burns. Thank you, Senator. I think the basic 
problem is that the Europeans are accustomed to looking 
toward--for the United States to lead on any big issue. This is 
a big issue, and the hearing is central to it, because all of 
us are under attack from a systematic Russian campaign. But 
they don't see the United States leading.
    And if you combine--and this is partly in response to 
Senator Cotton's very good question as well. President Trump 
has not been strong on the sanctions against Ukraine. He's not 
an advocate for the territorial independence of Ukraine. He's 
not spoken out on interference and he's been very ambivalent, 
even hostile, to NATO, and seems to look at Germany as a 
strategic economic competitor, not as an ally.
    If you put all that together, I think it is the first time 
since 1945 that Europeans might likely see Angela Merkel right 
now as leader of the West, not President Trump. I don't say 
that lightly and I think it's a sad statement to make, but I 
think it's a true statement. And so we need to recover our 
leadership role, and you do that by actions.
    And on this subject, it's by aligning yourself with the 
Europeans on the sanctions issue. That's why I support what the 
Senate has done on a bipartisan basis. And it's by trying to 
raise our defenses, as Janis has talked about here, in a very 
effective way.
    Senator Harris. And can any of the other panelists offer 
that?
    Mr. Chairman and Vice Chairman, I appreciate you having 
this hearing and an open hearing on the issue. I think the 
American people should have a better sense of how our 
reputation and standing in the global community has been 
impacted by our failure to acknowledge that Russia attempted to 
manipulate an election for the President of the United States.
    Do any of the other panelists want to add to the 
Ambassador's point?
    Ambassador Garcevic. I will add, just to remind you that 
the Article 5 has been invoked only once in the history of 
NATO, in the situation when the U.S. was under attack after 
September 11th, and that all our allies from Europe stood up 
and stand behind U.S. at that time. And we've been in 
Afghanistan for years now together, alongside, fighting the 
same cause.
    Dr. Stelzenmueller. I'll just add one number to that. More 
than 800 Europeans have died alongside American troops fighting 
in Afghanistan, for a joint cause.
    Senator Harris. Thank you.
    Mr. Sarts, you mentioned a couple of points about the 
French elections. And I was curious about--and Senator Collins 
I think raised this point also--you talked about media as a 
partner and their cooperation with the French government, and 
that they actually were very active in verifying the factual 
accuracy of misinformation.
    You also discussed the importance of assuming that a 
country will be hacked and then trapping hackers, and arguably 
then at some point being able to prosecute them in France and 
get some consequence and accountability.
    How would you propose that that would be applied in the 
United States? You know that, for example, I won't name the 
stations, but there are two cable networks that if you watch 
them at the same time on the same subject, you will hear two 
completely different versions of what's happening. And so we 
have to acknowledge that we have a culture around the media in 
this country as it relates to politics at least that may not be 
as coordinated as some of the media in Europe.
    How would you propose--again looking at the 2018 election 
as a goal for protecting ourselves, how would we work with the 
media to inoculate or prevent harm or to be resilient once we 
know we've been hacked?
    Mr. Sarts. Well, truth and facts matter. Facts matter. We 
don't build bridges on false facts. We want to then get them 
straight. It is very hard to have a functional democracy 
without facts as a basis for it.
    We tend to go into different directions because of 
opinions, and that's okay. That's what the democratic process 
is. But at the end of the day, all we have to agree is that if 
we don't value the factual basis of our reality, democracy 
would not work.
    Senator Harris. I'm sorry, I only have a couple of seconds. 
How did the French media expose a misstatement of fact to be 
without factual basis? How did they expose the fake news, if 
you will? What did they do?
    Mr. Sarts. There are a whole set of ways how you verify 
what the information is in front of them. The journalists 
should be very good at it. And actually, the whole--the biggest 
point is actually value and understand the role, as it is 
called, soft power. It is both also the power and the 
responsibility. And understand that within the responsibility 
of that for media in a democratic society, to have it 
functional is to value the factual basis. That's I think the 
understanding upon which the French media were able to come 
together to actually work together.
    I wouldn't classify there was a cooperation between media 
and the government. Media cooperated in between themselves 
irrespective of different political viewpoints, valuing that 
the democratic system is based on fact.
    Senator Harris. I agree with that. And I would just say 
that it's important to value a free and independent press in 
order to allow them to do their job. Thank you.
    Chairman Burr. Senator McCain.
    Senator McCain. Mr. Garcevic, do you believe that the 
United States has a strategy to respond to the cyber warfare 
that we're in today?
    Ambassador Garcevic. I think yes.
    Senator McCain. Could you tell me that strategy?
    Ambassador Garcevic. That's a very difficult question. I 
would say that I can see that strategy through NATO and what I 
also----
    Senator McCain. Through NATO?
    Ambassador Garcevic. Yes, because when it comes to cyber 
attacks, you remember that as a result of the first cyber 
attack on a large scale, which happened years ago when Russia 
attacked Estonia, a Center of Excellence was established in 
Estonia, which was supposed to be----
    Senator McCain. That didn't have anything to do with an 
American strategy. I was there at the opening of it.
    Ambassador Garcevic. Yes, but I think that there is a--in 
our case, in our case, if I can just return to our case, you 
know, thanks to--when we found out that it would be difficult, 
at least as far as I know, it would be difficult to clarify the 
case, we turned to and asked for help from the U.S. and the 
U.K. agencies.
    I would like to believe that, you know, that strategy 
exists. I can only--I cannot comment on it because I'm not--I'm 
not in the loop. I didn't read it. I didn't talk to people who 
can explain. But what I can see that's happening every day 
there is that through your embassies and through your 
diplomatic network, a network that exists in NATO at the 
working level, countries like Montenegro if in need receive 
assistance.
    Senator McCain. Well, that's a great answer. Thank you.
    Should we expect similar aggressive behavior as we saw in 
the attempt to overthrow the government of Montenegro at other 
NATO aspirants, such as Bosnia and Herzegovina, Macedonia, 
Kosovo?
    Ambassador Garcevic. What I mentioned in my introductory, 
I'm sure that this is just one case and I'm sure that Russia 
will continue doing something similar in our neighborhood.
    Senator McCain. That's pretty exciting. They recruited 
people. They were----
    Ambassador Garcevic. Yes.
    Senator McCain [continuing]. Willing to kill people. They 
were willing to send people in uniform to kill the Prime 
Minister. I mean, it's--it reads out of a novel.
    Ambassador Garcevic. That's why I think that U.S. and 
European partners must remain active in the region. And if 
there were any retreat from the region would be detrimental for 
democracies in our part of----
    Senator McCain. They came awfully close to succeeding. If 
we hadn't had an informant from the inside, they might have 
succeeded.
    Ambassador Garcevic. What I answered--what I answered 
previously, that in some cases we simply hit luck. I cannot say 
that we were capable to fight back. Simply it happened as a 
result of certain circumstances. One of them you mentioned. And 
that helped us a lot.
    Senator McCain. Like an informant on the inside.
    Ambassador Garcevic. Yes, this was an informant who came 
to--who was aware of the proportion of bloodshed that would 
happen if this action succeeded. And he turned to--he turned 
and showed up in police to report.
    Senator McCain. Mr. Sarts, should we be concerned about 
that level of violence that the GRU is willing to engage in in 
order to overthrow a freely elected government?
    Mr. Sarts. It is concerning and we should be concerned.
    Senator McCain. Why do you think we haven't heard more 
about it?
    Mr. Sarts. I'm quite surprised about that as well, because 
I think that is a very, very telling story that we have to 
reflect upon.
    I have one hope, and that is the fact that it all failed. 
Russians, like everybody else, do their lessons learned. So I 
hope the lesson that they learned, it's not really that 
effective. And in these cases, they tend to lose what they like 
to have, that is plausible deniability, at least----
    Senator McCain. What has been publicly actioned in 
Montenegro about this failed coup?
    Ambassador Garcevic. I would say reaction was mixed, even 
including me, at the beginning. I was at that time in the U.S., 
not working any more for government. And the first reaction was 
a mix of feelings, whether this was staged or not, whether it 
is true or not.
    But time goes on and we are more and more aware of the 
proportion of the action and what was behind this action and 
how the action was organized. And then, also, as a result of 
two suspects decided to cooperate with the police and they 
disclosed in their verdicts how action was planned, who 
financed it, who were the people for contacts in Serbia, those 
two agents that I mentioned at the beginning.
    Senator McCain. What--go ahead.
    Ambassador Garcevic. The Russian agents. Then this actually 
helped us make this picture completed, putting pieces one by 
one so then now we have clear picture what was happening----
    Senator McCain. What's the reaction in the Baltics, Mr. 
Sarts?
    Mr. Sarts. In the Baltics, I think currently all the 
governments are looking at--there's a great concern at the big-
scale Russian military exercise that is planned for September, 
Zapad 2017. We, from all----
    Senator McCain. Are you talking about the reaction to what 
was clearly a very complex, detailed plot to violently 
overthrow a freely elected government?
    Mr. Sarts. Well, there were all kinds of political 
statements condemning that. There was a discussion within the 
countries, both--within the government's closed circles as well 
as openly, of what has been the parameters of it. And I would 
tell that governments have taken very great care to look into 
elements of what made it, and what was the plan, to make 
adjustments for their own planning in the case of this 
particular crisis.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Burr. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, panel, for an excellent discussion. Ambassador 
Burns, thank you for your distinguished service to the country 
in so many ways, and your wise counsel. And thank you for 
promoting us to the best hope of fixing this problem. But I 
think we're the second best, frankly. I share your concern that 
the President really has to take the lead here for obvious 
reasons. Commander-in-chief, chief diplomat, the most 
recognized public figure.
    There was a missed opportunity at the NATO conference. 
Forget what was said. What wasn't said was the common threat we 
face today, the most significant one, not the only one, is this 
deliberate action by the Russians.
    And my sense at least, that the most immediate game changer 
would be if the President, standing next to the Chancellor and 
to the President of France and to the British Prime Minister, 
took that position. I assume you might have an opinion on that.
    Ambassador Burns. Well, I do. I was Ambassador to NATO, as 
you know, Senator. And every American President has been the 
leader of that alliance, has affirmed that bedrock commitment. 
And we know it was in the President's speech and it came out, 
and so it had a devastating impact on American leadership.
    What we haven't talked about today is that, in addition to 
the intelligence and judicial and political measures to take to 
defend against the interference in our elections, you and 
Chairman McCain lead another Committee. We have to keep funding 
the rebuilding of the U.S. military in Europe; I hope 
permanently station the NATO battalions in Estonia, Latvia, 
Lithuania and Poland, because we're into containment of Russian 
power. We're back into containment on multiple levels. And this 
hearing exposes one of those levels.
    Senator Reed. In that spirit, though, not only the 
reaffirmation of Article 5, but also a positive statement about 
the common threat of cyber against the United States. We missed 
one opportunity, but if the President could stand with the 
leadership of NATO and the Prime Minister of Canada and many 
other interested parties and make that declaration, that would 
do as much to stop this process as anything. Is that fair?
    Ambassador Burns. Well, it would, because the immediate 
threat now is this threat. It's the cyber attacks on the 
electoral processes. It's a much bigger threat than the 
conventional threat.
    He has the opportunity. He'll be in Germany the week after 
next. He'll be at a summit hosted by Chancellor Merkel. There 
are opportunities for the President to get back into this 
leadership role and to try to build some bridges with the 
European leaders.
    My sense is that Secretary Tillerson and Secretary Mattis 
want us to go in that direction. They've been talking publicly 
about trying to play a bigger leadership role, a more concerted 
one.
    Senator Reed. Well, thank you.
    Mr. Sarts, we have had discussions about the 
vulnerabilities of our electoral system, our information, 
social media, all of these things. We know, as several people 
have suggested, that they're coming back.
    From your perspective, are the Russians working on--you 
know, already working on, in our case the 2016 campaign and the 
2018 campaign in the United States? Are they going to deploy 
more sophisticated cyber operations against our registration 
and electoral systems?
    There's been some reports, in Great Britain, within the 
context of the Brexit vote, that there was an attack on 
registration systems. And, I guess the biggest question of them 
all is, are they already there and we don't know it because of 
the ability to use some tools that have fallen into their 
hands? So, if you could.
    Mr. Sarts. One thing that we've registered, Russians do 
experimentation. Sometimes you see an odd pattern that is 
inconsequential in the given circumstances and you kind of 
dismiss it because it has no effect. But when you look forward 
or retrospectively when you see these cases, you see that has 
been the test case for a particular tool.
    So they're doing it right now. It's not necessarily that 
they test it in the theater they're going to deploy it. It 
might be a very different place. So, yes, there will be 
elaborate--more elaborate tools, both from technical, but also 
from a cognitive perspective. I would expect there'll be more. 
But I think the choices whether to and how to do that would be 
made pretty close within the contextual circumstances of the 
moment.
    Senator Reed. Now, your Center for Strategic Communication, 
are you actually dealing with this issue of, in Germany, for 
example, the upcoming election, trying to help them in the 
United States, trying to give advice? Is NATO taking the 
position, with we hope U.S. leadership, of proactively dealing 
with this? Or are you caught up in this kind of paralysis that 
we see in the United States?
    Mr. Sarts. Well, NATO is facing now this from a very 
different--well, not very, but slightly different angle, where 
the NATO is putting troops in the three Baltics and Poland. 
They are bombarded with disinformation, with fake news. Robotic 
networks are trying to attack. So NATO is taking different 
trends of response, capability build-up, practical steps, 
etcetera, etcetera.
    We at the Center, we are not part of the military 
structure. We are run by the countries that made our Center, so 
we respond to them; and if they ask, and they do, to give our 
advice, knowledge, or methodology, how they can counter 
specific cases, including election, we are there to support 
them.
    Senator Reed. Thank you very much.
    My time is expired. Thank you all very much.
    Chairman Burr. Thank you, Senator Reed.
    Thank you to all members for their participation today. And 
more importantly, thank you to each and every one of you. Your 
expertise is invaluable to us. Your testimony today is crucial, 
as I shared with all of you before this panel, at our ability 
not only to work through the current investigation that we're 
in, but to create a road map for the appropriate committees of 
jurisdiction, both at home to figure out how we can change 
elections to build defensive mechanisms or to make it less 
vulnerable and to work globally with our partners to make sure 
that any changes, any best practices might at least be shared 
and offered to be implemented.
    Just a couple of comments I've got. I was challenged from 
the beginning with the names today. I remain as challenged 
trying to figure out exactly what we do to stop Russian 
interference. But as we complete this process, I think we'll 
have a clearer and clearer picture.
    You've been asked today to submit some things. I would also 
ask you to think about the challenges that we've got and that 
you have in your respective areas of expertise and provide any 
additional input to us that you feel is pertinent to the 
decisions we'll make.
    Ambassador Burns, again I go back to something that you 
said and it's what Jim Comey said: Next time it could be the 
other party. As a matter of fact, when this whole effort 
started it wasn't targeted at one party or the other. I know 
you know that because you know the root of when this started, 
and it was a mere phishing expedition that probably encompassed 
hundreds, if not thousands, of individuals and nonprofits and 
organizations.
    It turned into a data-rich environment for Russia to be 
involved in an election. No question they would have been 
involved, but maybe not in the same direct way. They just 
happened to have accumulated the data. So right at the heart of 
it is this cyber security issue that the world continues to 
deal with and try to figure out what the silver bullet is. And 
the answer is there's not a silver bullet.
    The second thing is, I'm glad you admit it: You are a 
product of the State Department. And, you know, I can't 
envision the day that there would be a Secretary of any State 
Department that would be in favor of sanctions from the U.S. to 
a foreign entity because it's inherent that that makes their 
job tougher.
    But even though I don't think Secretary Tillerson is out 
there calling for Russian sanctions, I wouldn't expect any 
Secretary to do it. But there has to be--there has to be 
leadership. And I think that's what the world's crying for 
right now, is for leadership. And I hope that we do what we 
have historically done and we fill that vacuum, not because 
we're better at it. It's because I think as I travel the world, 
the world's waiting for us to do it because we provide a 
liability umbrella for a lot of countries. Because our 
elections have certainty and most other elections don't have 
the length of time certainty that we do.
    So there are things that are unique to the United States 
and we have to realize how that aids our partners around the 
world at leveraging that certainty of U.S. elections.
    So here's where I end up. I believe voters in Asheville, 
North Carolina and Houston, Texas deserve the same thing and 
that's to vote with no interference. Just as voters in Berlin 
and Paris deserve elections that have confidence that their 
votes and the integrity of their election systems are intact.
    As the Committee continues its investigation, it's 
increasingly clear that Russian activities fell into what I 
would refer to as a seam. It was domestic activity by a foreign 
power, so the intelligence community wasn't quite sure how to 
approach it. It involved what I might informally call pseudo-
government, organizations and the political party, so that it 
confused our government's approach somewhat.
    Lastly, the intelligence community diligently avoids 
political issues. So that added to the additional complexity of 
this problem.
    Here's where we are today. This Committee's got a charge 
from the leadership and that's to thoroughly review Russia's 
meddling in the 2016 election. And the Committee has committed 
to finish that investigation no matter how long it takes, no 
matter what the results are.
    I'm not sure that Russia's involvement in our election will 
change much from our initial assessment, which was the ICA that 
was produced by the Obama Administration. But what this 
Committee can do and should do is to make sure that every 
American and every person globally that cares about the 
integrity of elections, reviews what we find, embraces what's 
needed to assure that elections are fair and there's no 
interference in the future, and that we collectively commit to 
make sure that we carry that out.
    So the Committee's work is vitally important to how this 
difficult time in our history ends. But I'm confident that we 
can come out of this with a report that not only spells it out 
for those of us that are members of Congress, but spells it out 
for the American people and our partners abroad in a way that 
can be understood and can be received with confidence.
    Your contribution today has been incredibly helpful to our 
ability to put that report together.
    With that, this hearing is adjourned.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
